<html>
<title> - HOUSE MILITARY NATURALIZATION BILLS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
                  HOUSE MILITARY NATURALIZATION BILLS

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON IMMIGRATION,
                      BORDER SECURITY, AND CLAIMS

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   ON

              H.R. 1685, H.R. 1714, H.R. 1799, H.R. 1275, 
                        H.R. 1814 and H.R. 1850

                               __________

                              MAY 6, 2003

                               __________

                             Serial No. 15

                               __________

         Printed for the use of the Committee on the Judiciary


    Available via the World Wide Web: http://www.house.gov/judiciary







                        U.S. GOVERNMENT PRINTING OFFICE

86-950                         WASHINGTON : 2004
_____________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800
Fax: (202) 512-2250  Mail: Stop SSOP, Washington, DC  20402-0001





                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
WILLIAM L. JENKINS, Tennessee        ZOE LOFGREN, California
CHRIS CANNON, Utah                   SHEILA JACKSON LEE, Texas
SPENCER BACHUS, Alabama              MAXINE WATERS, California
JOHN N. HOSTETTLER, Indiana          MARTIN T. MEEHAN, Massachusetts
MARK GREEN, Wisconsin                WILLIAM D. DELAHUNT, Massachusetts
RIC KELLER, Florida                  ROBERT WEXLER, Florida
MELISSA A. HART, Pennsylvania        TAMMY BALDWIN, Wisconsin
JEFF FLAKE, Arizona                  ANTHONY D. WEINER, New York
MIKE PENCE, Indiana                  ADAM B. SCHIFF, California
J. RANDY FORBES, Virginia            LINDA T. SANCHEZ, California
STEVE KING, Iowa
JOHN R. CARTER, Texas
TOM FEENEY, Florida
MARSHA BLACKBURN, Tennessee

             Philip G. Kiko, Chief of Staff-General Counsel
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

        Subcommittee on Immigration, Border Security, and Claims

                 JOHN N. HOSTETTLER, Indiana, Chairman

JEFF FLAKE, Arizona                  SHEILA JACKSON LEE, Texas
MARSHA BLACKBURN, Tennessee          LINDA T. SANCHEZ, California
LAMAR SMITH, Texas                   ZOE LOFGREN, California
ELTON GALLEGLY, California           HOWARD L. BERMAN, California
CHRIS CANNON, Utah                   JOHN CONYERS, Jr., Michigan
STEVE KING, Iowa
MELISSA A. HART, Pennsylvania

                     George Fishman, Chief Counsel

                           Lora Ries, Counsel

                   Art Arthur, Full Committee Counsel

                  Cindy Blackston, Professional Staff

                   Nolan Rappaport, Minority Counsel




                            C O N T E N T S

                              ----------                              

                              MAY 6, 2003

                                 BILLS

H.R. 1714, ``Armed Forces Citizenship Act of 2003''

H.R. 1275, To amend the Immigration and Nationality Act to change 
  the requirements for naturalization to citizenship through 
  service in the Armed Forces of the United States

H.R. 1799, ``Fallen Heros Immigrant Spouse Fairness Act of 2003''

H.R. 1850, To provide for automatic naturalization for noncitizen 
  members of the Armed Forces ordered to serve in a combat zone, 
  and to extend immigration benefits to surviving apouses, 
  children, and parents of persons granted posthumous citizenship 
  through death while on active-duty service in the Armed Forces

H.R. 1685, To amend the Immigration and Nationality Act relating 
  to posthumous citizenship through death while on active-duty 
  service during periods of military hostilities to eliminate the 
  prohibition on immigration benefits for surviving family 
  members and to provide such benfits for spouses and children

H.R. 1814, ``Naturalization and Family Protection for Military 
  Members Act of 2003''

                           OPENING STATEMENT

                                                                   Page
The Honorable John N. Hostettler, a Representative in Congress 
  From the State of Indiana, and Chairman, Subcommittee on 
  Immigration, Border Security, and Claims.......................     1
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Ranking Member, Subcommittee on 
  Immigration, Border Security, and Claims.......................     4
The Honorable Linda T. Sanchez, a Representative in Congress From 
  the State of California........................................     6

                               WITNESSES

The Honorable Doc Hastings, a Representative in Congress From the 
  State of Washington
  Oral Testimony.................................................     8
  Prepared Statement.............................................    10
The Honorable Martin Frost, a Representative in Congress From the 
  State of Texas
  Oral Testimony.................................................    11
  Prepared Statement.............................................    13
The Honorable Walter B. Jones, a Representative in Congress From 
  the State of North Carolina
  Oral Testimony.................................................    17
  Prepared Statement.............................................    18
The Honorable Luis V. Gutierrez, a Representative in Congress 
  From the State of Illinois
  Oral Testimony.................................................    19
  Prepared Statement.............................................    21
The Honorable Darrell Issa, a Representative in Congress From the 
  State of California
  Oral Testimony.................................................    22
  Prepared Statement.............................................    23
The Honorable Hilda L. Solis, a Representative in Congress From 
  the State of California
  Oral Testimony.................................................    24
  Prepared Statement.............................................    26

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement by the Honorable Sheila Jackson Lee, a 
  Representative in Congress From the State of Texas.............    41
Prepared Statement by the Honorable Bob Filner, a Representative 
  in Congress From the State of California.......................    42


                  HOUSE MILITARY NATURALIZATION BILLS

                              ----------                              


                          TUESDAY, MAY 6, 2003

                  House of Representatives,
                       Subcommittee on Immigration,
                       Border Security, and Claims,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 2141, Rayburn House Office Building, Hon. John H. 
Hostettler [Chairman of the Subcommittee] presiding.
    Mr. Hostettler. This Subcommittee will come to order. At 
the outset we will hear opening statements. And given that the 
Chair's opening statement will probably exceed the 5-minute 
limit, that will also hold true for the rest of the 
Subcommittee.
    Since the beginning of Operation Iraqi Freedom and, more 
specifically, the news that some of the members of our Armed 
Forces who died in combat were permanent residents, several 
bills have been introduced to either ease their naturalization 
requirements or provide immigration benefits to surviving 
family members of those killed in combat, or both.
    The purpose of this hearing today is to examine these bills 
and to examine current law to determine what changes, if any, 
should be made to military naturalization.
    To join the United States military, an alien must be at 
least a lawful permanent resident. To hold certain specialized 
positions in the military such as a Navy SEAL, a person must be 
a U.S. citizen. Currently, over 37,000 active duty members of 
the Armed Forces are noncitizens out of a total of 1.4 million 
men and women on active duty. In other words, about 2.6 percent 
of the United States military is made up of non-U.S. citizens. 
Likewise, about 11,800 members of the National Guard and 
Reserve are noncitizens out of a total of 1,353,000. This 
amounts to about 0.87 percent of our National Guard and Reserve 
being noncitizens.
    Under current immigration law, there are three mechanisms 
by which a member of the Armed Forces may become a naturalized 
U.S. citizen:
    First, section 328 of the Immigration and Nationality Act, 
or INA, permits a person who has served honorably at any time 
in the U.S. Armed Forces, for a period or periods aggregating 3 
years, and who if separated from such service was never 
separated except under honorable conditions, to naturalize. As 
a comparison, lawful permanent residents generally must have a 
green card for 5 years before they may be naturalized. However, 
lawful permanent residents married to U.S. citizens may apply 
for naturalization after 3 years instead of 5 years. Applicants 
pay fees totaling $310 to naturalize.
    Second, section 329 of the INA permits an alien who has 
served honorably in an active duty status in the U.S. military 
during World War I, World War II, the Korean War, the Vietnam 
War, or in other periods of military hostilities designated by 
the President by Executive order and who have separated from 
such service, was honorably separated, to naturalize. An alien 
in this category may apply for naturalization immediately.
    We are currently in a period of military hostilities 
designated by the President by an Executive order. On July 3, 
2002, President Bush officially designated the period beginning 
on September 11, 2001 as a period of hostilities which 
triggered immediate naturalization eligibility for active duty 
U.S. Military service members under section 329 of the INA.
    The Department of Defense and the Bureaus of Citizenship 
and Immigration Services, formerly the INS, in the Department 
of Homeland Security work closely together to expedite military 
naturalization applications in what both Departments describe 
as a smooth process; 6,753 lawful permanent resident military 
personnel have filed naturalization applications since July 3rd 
of last year, the date of the President's Executive order.
    The third way a noncitizen member of the Armed Forces may 
become a U.S. Citizen is subsequent to death while on active 
duty service under section 329(a) of the INA. An alien who 
honorably served in the military during a named hostility 
mentioned above, and died as a result of injury or disease 
incurred in or aggravated by that service, may be granted 
posthumous citizenship if applied for by the next of kin no 
later than 2 years after the date of enactment of the 
Posthumous Citizenship Restoration Act of 2002 or the date of 
the person's death, whichever date is later. Posthumous 
citizenship does not confer any immigration benefits onto any 
family member of the deceased alien.
    Currently, military personnel must be in the United States 
to file a naturalization application, to be interviewed for the 
application, and to take the oath of citizenship. This 
requirement causes some military personnel to have to leave 
their post abroad and return to the United States at their own 
expense. Many complain that this is both expensive and 
impractical. Accordingly, some of the bills introduced require 
the Department of Homeland Security, the Department of State, 
and the Department of Defense to ensure that naturalization 
applications, interviews, filings, oaths, and ceremonies are 
available at U.S. embassies, consulates, and, military 
installations abroad. Several Members' bills also waive the 
fees for the naturalization petition and the naturalization 
certificate to ease the financial burden for members of the 
Armed Forces.
    I support a change in the naturalization process to permit 
members of the Armed Forces abroad to apply for naturalization 
interview and take the oath of citizenship at U.S. embassies, 
consulates, and abroad, as practicable. Forcing military 
personnel stationed abroad to return to the U.S. to apply for 
naturalization and to take the oath is impractical and causes 
unnecessary interruption in their military activity.
    Likewise, I do not oppose waiving the application fees for 
our military personnel. They perform an outstanding service for 
our country, and the current procedure is more than just an 
inconvenience to that service.
    A number of Members also wish to lower the number of years 
a member of the Armed Forces must be in the military before 
becoming eligible to apply for naturalization. H.R. 1275 and 
H.R. 1814 lower the 3-year military service requirement to 2 
years. One bill, H.R. 1714, lowers the 3-year requirement to 
zero years. In conjunction with immediate eligibility, H.R. 
1714 requires revocation of citizenship for other than 
honorable separation from the military. H.R. 1814 also permits 
Reservists during named hostilities to naturalize immediately.
    I have misgivings about reducing the military service 
requirement below 3 years, as well as permitting aliens who 
join the Reserves during named hostilities to be able to 
naturalize immediately. While noncitizens currently serve in 
our Armed Forces, they must demonstrate their loyalty and their 
character for 3 years before they become U.S. Citizens. Let me 
reiterate. Current law already recognizes the unique nature of 
military service by noncitizens by reducing the waiting period 
from the standard 5 years to 3 years for those who serve. To 
permit an alien to sign on the dotted line to join the military 
and then immediately become eligible for U.S. Citizenship 
diminishes what it means to be a citizen of the United States 
of America.
    In addition, to push aside concerns about a brand-new 
recruit becoming a citizen because the law permits that 
citizenship to be taken away if they are subsequently 
discharged under other than honorable conditions neither holds 
U.S. Citizenship sacrosanct nor acknowledges the difficulty and 
rarity in denaturalizing someone.
    Last year 573,708 aliens naturalized. Around 60 naturalized 
citizens were denaturalized. Many judges are loath to take a 
lawful permanent resident's green card away. Think how 
reluctant judges would be to take away a person's citizenship. 
And remember, it is a Federal judge who decides and has 
discretion to denaturalize someone, not the military.
    Furthermore, we already know that al Qaeda has sought to 
recruit U.S. citizens because they can travel abroad, cannot be 
deported, and blend easily into American society. If September 
11th taught us anything, it taught us that terrorists who wish 
to harm us are very creative and that we need to be more 
creative to stop them. That means that we cannot create more 
immigration loopholes which terrorists can easily exploit. It 
doesn't take much creative thought to realize that if a 
noncitizen soldier can naturalize immediately upon joining the 
military and work in the most sensitive positions, the lure of 
the military for terrorists will only increase. Terrorists have 
already recruited members of our Armed Forces who are trained 
in our military, learn our tactics, and gain access to our 
weapons. Opening this loophole would be irresponsible.
    The second area in which these bills legislate is in 
granting immigration benefits to the survivors of members of 
our Armed Forces killed in combat. These changes include 
waiving the 2-year marriage requirement for the spouse of a 
U.S. citizen soldier killed in action to remain an immediate 
relative for immigration benefits, waiving the fee for the 
posthumous citizenship application, and permitting family 
members of posthumous-granted U.S. Citizens to receive 
immigration benefits while waiving the affidavit of support 
filing requirement and other grounds of inadmissibility.
    I do not oppose letting a spouse of a U.S. citizen killed 
in combat retain the same immigration status as an immediate 
relative, as would have occurred had the U.S. citizen not died, 
nor do I oppose waiving the fee for the next of kin to apply 
for posthumous citizenship for members of the Armed Forces who 
are killed during their service. I do, however, have concerns 
with granting immigration benefits to family members of those 
granted posthumous citizenship. While the numbers of aliens 
this would affect may be minimal, this is a significant 
departure from longstanding law. What makes such a change 
necessary now that didn't exist before? In addition, what will 
we say to the family members of Armed Forces personnel granted 
posthumous citizenship prior to 9/11/2001? Those family members 
will certainly ask that they, too, be able to pursue 
immigration benefits based on their deceased family member.
    Having said all that, I now yield to the Ranking Member, 
Ms. Jackson Lee, for an opening statement.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. And I 
am very pleased that we were able to hold this hearing and 
proceed with the very instructive legislative initiatives by 
the very able Members that appear before us this morning. And I 
want to thank the Members very much for the leadership that 
they have shown on this I think very unique and singular issue.
    Might I say, Mr. Chairman, that on behalf of the Members on 
this side--and I appreciate the presence of Ms. Sanchez--that 
many of our Members are en route to Washington and would have 
liked to have been here. But because of their schedules--and 
some of whom have come from or are in California, as far as 
California--some were not able to be here with us this morning. 
And I know that the Members of this Subcommittee would like to 
equally compliment all of you for the leadership that you have 
shown.
    Mr. Chairman, the one thing that I know about the hearings 
this morning is that we are doing the right thing. There is no 
doubt that the present configuration of the immigration law is 
wrong as relates to patriots who happen not to be citizens, as 
relates to those who were willing to give the ultimate 
sacrifice who happen not to be citizens, as relates to family 
members of those who have given the ultimate sacrifice and who 
happen not to be citizens. So clearly we are doing the right 
thing. I think, Mr. Chairman, it has to be a question of how do 
we do a better thing.
    Might I share with you the story of Jose Gutierrez, who was 
an orphan from Guatemala when he hitchhiked on railcars into 
Mexico in 1997. He entered the United States illegally. Later, 
however, as a minor with no parents, he qualified for permanent 
residency and was taken in by a foster family. He graduated 
from high school and studied at a junior college before joining 
the Marine Corps. On March 21st, 2003, in a battle with Iraq's 
Republican Guard troops, Lance Corporal Jose Gutierrez was 
killed in the service of the country he so loved.
    According to Martha Espinosa, one of his former foster 
mothers, he once said to me: I was born the day I arrived in 
this country.
    Jones was one of--Jose, rather, was one of four fallen 
Marines who deserve special mention because they died in 
service to a country or in a country that they could not yet 
call their own. The other three were Private First Class 
Francisco Martinez Flores, Corporal Jose Angel Gabray, and 
Lance Corporal Jesus Sorres Del Solar, all born in Mexico.
    Immigrants have long seen service in the United States as a 
gateway to citizenship, education, economic opportunity; and 
the deaths of these four marines echo those of other 
noncitizens who died for their country before them. Their valor 
is well documented. Their love is well documented. Their 
commitment is well documented. Their patriotism is well 
documented.
    Service in the United States military, particularly in 
times of conflict, is the ultimate act of patriotism. Our 
immigration laws traditionally have allowed for expedited 
citizenship consideration for noncitizen members of the United 
States military even in peacetime. For example, section 328 of 
the Immigration Nationality Act allows noncitizen members of 
the military in peacetime to become citizens after 3 years of 
service instead of the usual 5-year wait requirement of 
nonmilitary applicants. In addition, section 329 of INA allows 
noncitizens to receive immediate naturalization eligibility 
through their active duty service in the Armed Forces during 
periods of military hostilities. Yet there is much work for us 
to do. This opportunity becomes available when the President 
designates by Executive order that the Armed Services are or 
were engaged in armed conflict with a hostile foreign force. 
Under section 329 of the INA, 143,000 noncitizen military 
participants in World Wars I and II and 31,000 members of the 
U.S. Military who fought during the Korean War became 
naturalized American citizens. Executive orders following 
Vietnam and the Persian Gulf collectively led to more than 
100,000 members of the U.S. Military becoming American 
citizens.
    Those are fine processes, but we need to have new law on 
this issue. It is well overdue. Notwithstanding this history of 
generosity toward people who have served in our Armed Forces, 
the provisions of military service-based naturalization can be 
improved.
    The bills that are the subject of this hearing offer 
improvements in a number of areas. For instance, some of the 
bills would reduce the 3-year wait for peacetime. Some of my 
colleagues would like the time reduced to 2 years; others would 
eliminate the wait entirely and permit a peacetime soldier to 
begin the naturalization process immediately when he or she 
begins activity duty in the Armed Forces.
    Let it be very clear that at the time of an individual's 
willingness to sign the papers, they have made the commitment 
to be able to stand for this Nation and to offer the ultimate 
sacrifice. If there is any litmus test, it should be simply 
that. They have been willing to sign up, they are willing to 
stand on behalf of all of our freedoms.
    The area that concerns me most is the posthumous 
naturalization which is granted when a soldier dies while on 
active duty during a period of military hostility. As presently 
written, the posthumous naturalization provisions explicitly 
state that the soldier's spouse and children will not benefit 
from the grant of posthumous citizenship. Several of the bills 
would remove this exclusion and specify that the spouse and 
children will be eligible for immigration benefits on the basis 
of the posthumous grant of naturalization.
    We must move quickly on this aspect, but I believe that we 
must go further. We need to show the extent of our gratitude 
toward the soldiers who died for this country by making 
citizenship readily available for their surviving spouses who 
are already lawful permanent residents of the United States. 
Ordinarily, a lawful permanent resident must be married to a 
United States citizen for a period of 3 years before he or she 
can apply for the naturalization as a spouse of a United States 
citizen. Section 319(d) of the act waives that requirement in 
the case where the lawful permanent resident spouse is married 
to a citizen spouse who dies during a period of honorable 
service. That provision should be revised to apply in a case 
where the soldier's citizenship is received posthumously.
    The only difference between the two situations is that the 
one addressed by the current law applies to a soldier who 
receives his citizenship while he is alive; while, as in the 
second situation, the citizenship is received posthumously. In 
both cases, the soldier is a citizen who is killed during a 
period of honorable service. If anything, the posthumous 
situation is more compelling than any other situation. 
Posthumous situation citizenship is given when a soldier dies 
during a period of military hostility.
    In conclusion, Mr. Chairman, I believe we can work 
together. We might be able to work together even in spite of 
your comments this morning as we listen to our colleagues about 
the 2-year waiver regarding the marriage requirement. The fees 
that are presently utilized, I believe we have common 
agreement: the eligibility time frame for the naturalization 
period, the 3-year eligibility period for naturalization, to a 
certain number of years; the fees, both in the Federal level 
and the State level; the requirement for the Department of 
Homeland Security, Department of State, Department of Defense 
that we might look at; and, as well, the requirements regarding 
the Department of Defense in facilitating the final 
naturalization processes. There are many aspects of these 
particular legislative initiatives that I would hope the 
Judiciary Committee would find common ground, and that we would 
be able to work together to ensure that when we finally pass 
legislation it will answer the question do we in fact pay 
tribute to these great and valiant soldiers, those living and 
those who have been willing and have given their lives.
    I yield back.
    Mr. Hostettler. I thank the gentlelady.
    Are there any other Members who wish to make opening 
statements? Ms. Sanchez from California.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Good morning, and thank you to all of the witnesses who 
have come here today to talk about the legislation on the issue 
of military naturalization. I applaud my fellow Members of 
Congress for recognizing the need for legislation in this area.
    In this country, noncitizens have worn our military 
uniforms and fought in our battles throughout history. In fact, 
one of my uncles served while a noncitizen. More recently, the 
percentage of noncitizens serving in our military has been on 
the rise. The Department of Defense now estimates that 
approximately 3 percent of our military are legal permanent 
residents. It seems only fair to recognize and reward these 
individuals for the sacrifices they have made and are willing 
to make. Without being citizens and without having the 
protections that status would give them, these immigrant men 
and women are willing to risk their own lives to defend this 
Nation. The very least we can do is to give them something in 
return. And the kinds of things recommended by these bills are 
the kinds of things that we all can support. No one is asking 
that everyone who signs up for the military should become 
citizens with no requirements whatsoever. We are talking about 
checking all the proper criteria, dotting the i's and crossing 
the t's and then, if everything checks out, giving them 
citizenship.
    Let us take the case of spouses and children of noncitizen 
soldiers who die while serving this country. If those spouses 
and children are waiting for immigration applications to be 
processed, it seems like the height of insult to take that away 
from them. Again, no one is suggesting that they should 
automatically be granted citizenship or other legal status. 
What is being suggested is that they be given the opportunity 
to continue pursuing their application.
    I am sure it is an honor for individuals whose spouse or 
parent died to know that that person was granted posthumous 
citizenship, but we need to seriously ask ourselves if that is 
enough. If somebody gives the most that they can give this 
country, their very life, then doesn't it seem like this 
country should give them something back? Since the soldier is 
no longer alive to receive those benefits, it seems only 
fitting to pass those benefits on to the soldier's spouse and 
children.
    As a co-sponsor of the Frost and the Solis bills, I wholly 
support these efforts to thank our legal permanent residents 
for their efforts and sacrifices. I urge my fellow Subcommittee 
Members to do the same.
    I yield back.
    Mr. Hostettler. Thank you, Ms. Sanchez.
    At this time we will hear from our witnesses and 
colleagues.
    First of all, Representative Doc Hastings won election to 
the U.S. House of Representatives in 1994 to serve Central 
Washington's Fourth Congressional District. He was reelected to 
a fifth term in 2002. Congressman Hastings sits on the House 
Rules Committee as well as the Budget Committee. He is also the 
Republican assistant majority whip for the House. He has 
introduced H.R. 1714, the ``Armed Forces Citizenship Act of 
2002,'' about which he will testify today.
    Mr. Hostettler. Representative Martin Frost is serving his 
13th term, representing the 24th Congressional District of 
Texas. He serves as the Ranking Democrat Member of the House 
Rules Committee, and was the Chairman of the House Democratic 
Caucus from 1999 through 2002. Congressman Frost's wife is a 
Major General on active duty in the United States Army. And I 
didn't realize that until today, Congressman. And I understand 
you probably have a very unique perspective of this issue, and 
we appreciate her service as well.
    He has introduced H.R. 1275 to amend the Immigration and 
Nationality Act to change the requirements for naturalization 
to citizenship through service in the Armed Forces of the 
United States, about which he will testify today.
    Representative Walter Jones is serving his fifth term 
representing the Third Congressional District of North 
Carolina. He sits on the Committees on Armed Services, 
Financial Services, and Resources. He has introduced H.R. 1799, 
the ``Fallen Heroes Immigrant Spouse Fairness Act of 2003,'' 
the subject of his testimony here today.
    Mr. Hostettler. Representative Luis Gutierrez is serving 
his sixth term as the Representative from the Fourth District 
of Illinois. He sits on the Financial Services and Veterans' 
Affairs Committees. Mr. Gutierrez has introduced H.R. 1850, the 
``Fairness for America's Heroes Act,'' about which he will 
testify today.
    Mr. Hostettler. Representative Darrell Issa is serving his 
second term as the Representative for the 49th Congressional 
District of California. He sits on the Energy and Commerce 
Committee, and formerly was a Member of the Judiciary Committee 
during the 107th Congress, including this Subcommittee. 
Congressman Issa enlisted in the Army during his senior year of 
high school and attained the rank of captain after attending 
college on an ROTC scholarship. Mr. Issa has introduced H.R. 
1685, to amend the Immigration and Nationality Act relating to 
posthumous citizenship through death while on active duty 
service during periods of military hostilities, to eliminate 
the prohibition on immigration benefits for surviving family 
members, and to provide such benefits for spouse and children, 
the subject of his testimony here today.
    Mr. Hostettler. Representative Hilda Solis was first 
elected to Congress in 2000, and is currently serving her 
second term representing the 32nd Congressional District of 
California. Congresswoman Solis serves on the Energy and 
Commerce Committee, and is the Ranking Member of the 
Environmental and Hazardous Material Subcommittee. She is also 
the assistant whip chairwoman of the Congressional Hispanic 
Caucus's Task Force on Health, and Democratic Vice Chair on the 
Congressional Caucus of Women's Issues. Ms. Solis has 
introduced H.R. 1814, the ``Naturalization and Family 
Protection for Military Members Act of 2003,'' about which she 
will testify today.
    Mr. Hostettler. Lady and gentlemen, thank you very much for 
being here and for your service. The Chair now recognizes 
Representative Doc Hastings for your opening statement. And 
without objection, all opening statements will be made 
available to the record. So you are free to testify.

   STATEMENT OF HONORABLE DOC HASTINGS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Hastings. Thank you very much, Mr. Chairman, and 
Members of the Subcommittee. I appreciate the opportunity to 
testify this morning, and I would like to commend you for 
holding this hearing that is of great importance both to the 
Nation and to many of our men and women in uniform.
    Last week when President Bush welcomed home the officers 
and crew serving aboard the USS Abraham Lincoln, he took 
special care to note the sacrifices made during the war in Iraq 
by soldiers, sailors, airmen, and marines who will not be 
returning home to their loved ones. Tragically, under current 
law, some of those who died wearing the uniform of the United 
States gave their lives before they were truly entitled to call 
themselves Americans. To me, that is just plain wrong and is an 
injustice that I hope Congress will move quickly to correct.
    Simply put, Mr. Chairman, this is our chance to do the 
right thing for those who are doing the right thing for 
America. Now, I am not referring to illegal aliens or 
undocumented workers or those here in the U.S. on various kinds 
of temporary permits or visas. Rather, I am talking about legal 
permanent residents of this country, those born overseas and 
who by law are entitled to live and work in this country for 
the rest of their lives if they choose to. What they are not 
entitled to do, not yet anyway, is to become U.S. citizens with 
all the rights that are guaranteed to U.S. citizens under our 
Constitution.
    Mr. Chairman, you alluded to the fact that there were 
37,000 noncitizen immigrants serving in the Armed Services. 
Frankly, that number surprised me, but those 37,000 patriotic 
men and women have sworn an oath to protect and defend a Nation 
whose ideals they love and respect and believe in. Is there any 
better way to demonstrate your fitness for citizenship than to 
make that kind of commitment to what our Nation stands for? 
Aren't these precisely the kind of individuals that we want to 
be U.S. citizens?
    Under existing laws, if you never enter the military, legal 
permanent residents--and those are the types of people we are 
talking about--can simply wait 5 years and become naturalized 
citizens; or, by joining the military they can apply for 
citizenship sooner, after serving 3 years on active duty or in 
the Reserves.
    Mr. Chairman, I believe 3 years simply is too long a 
waiting period for men and women who have made the kind of 
commitment to our Nation that you make by enlisting in the 
Armed Forces. And I should also note that most of the 
individuals we are talking about were already here and had been 
legal permanent residents for some time period before beginning 
their military service.
    Shortly before the April recess, I introduced H.R. 1714, 
the ``Armed Services Citizenship Act,'' which would have made 
active duty personnel immediately eligible for citizenship. My 
bill would also waive the customary administrative fees 
required for naturalization, and make it possible for service 
men and women to take their citizenship oaths overseas.
    Finally, a critically important section of my bill provides 
for citizenship gained in this fashion to be revoked if the 
serviceman is discharged under other than honorable 
circumstances. In other words, they must follow through on 
their commitment. They have to do their part to become a 
citizen.
    I am pleased that in just the few days that we have been in 
session since the break, over 25 of my colleagues have joined 
on a bipartisan basis to cosponsor my bill. However, after 
extensive conversations with immigration officials, the 
military services, and a number of my colleagues, I have made 
several changes that are to be incorporated in my new bill 
which has not yet been assigned a number by the clerk.
    First, in response to Members who are reluctant to grant 
immediate eligibility for citizenship, I would now propose to 
establish eligibility after 1 year of military service. 
According to the Defense Department, the vast majority of those 
failing to complete their initial enlistments are gone before 
the first year that they have been in uniform. For the most 
part, by the end of the year of service, we know what kind of 
people these individuals are.
    Second, because the current law accelerating naturalization 
for military personnel makes no distinction between active duty 
service and Reserves, I have removed that distinction from my 
original bill.
    Finally, I would strongly urge the Committee to make it 
possible for military personnel to begin the paperwork process 
for naturalization upon entering military service in the hope 
that once they have served the required time in uniform, there 
would be no unnecessary further delay in administering their 
oaths of office. Ideally, by the time any individual was 
ordered into harm's way, he or she would be made eligible to 
become citizens of the country that they serve to defend.
    So in closing, Mr. Chairman, let me say that I am pleased 
that several of my colleagues have introduced legislation 
conferring citizenship on those servicemen who have lost their 
lives before becoming citizens. And while I support their 
efforts, I am hopeful that this Committee will work to ensure 
that it is never again necessary to grant citizenship to an 
American soldier who has died in service of this country before 
that individual experiences the tremendous pride felt by those 
who can say five very simple words, and I quote, ``I am an 
American citizen,'' end quote.
    Thank you very much, Mr. Chairman.
    Mr. Hostettler. Thank you, Congressman Hastings.
    [The statement of Mr. Hastings follows:]
 Prepared Statement of the Honorable Doc Hastings, a Representative in 
                Congress From the State of West Virginia
    Mr. Chairman and members of the Subcommittee, I appreciate the 
opportunity to testify this morning and I'd like to commend you for 
holding this hearing on an issue of great importance both to the nation 
and to many of our men and women in uniform.
    Last week, when President Bush welcomed home the officers and crew 
serving aboard the USS Abraham Lincoln, he took special care to note 
the sacrifices made during the war in Iraq by soldiers, sailors, airmen 
and marines who won't be returning home to their loved ones.
    Tragically, under current law, some of those who died wearing the 
uniform of the United States gave their lives before they were truly 
entitled to call themselves ``Americans.''
    That's just plain wrong, and it's an injustice I hope Congress will 
move quickly to correct.
    Simply put, Mr. Chairman, this is our chance to do the right 
thing--for those who are doing the right thing for America.
    I'm not referring to illegal aliens, or undocumented workers, or 
those here in the U.S. on various kinds of temporary permits and visas. 
Rather, I'm talking about Legal Permanent Residents of this country--
those born overseas, but who by law are entitled to live and work in 
this country for the rest of their lives if they so choose.
    What they are not entitled to do--not yet, anyway--is become U.S. 
citizens, with all the rights that are guaranteed to U.S. citizens 
under our Constitution.
    It might surprise members of this committee--because I know it 
surprised me--to learn that there are currently more than 37,000 non-
citizen legal immigrants serving on active duty in our armed forces.
    37,000 patriotic men and women who have sworn an oath to protect 
and defend a nation whose ideals they love and respect and believe in. 
Is there any better way to demonstrate your fitness for citizenship 
than to make that kind of commitment to what our nation stands for? 
Aren't these precisely the kind of individuals we should want as U.S. 
citizens?
    Under existing law, if they never enter the military, Legal 
Permanent Residents can simply wait five years and become naturalized 
citizens. Or, by joining the military they can apply for citizenship 
sooner--after serving for three years on active duty or in the 
reserves.
    Mr. Chairman, I believe three years is simply too long a waiting 
period for men and women who have made the kind of commitment to our 
nation that you make by enlisting in the armed forces. And I should 
also note that most of the individuals we're talking about here have 
already had Legal Permanent Resident status for some period of time 
before beginning their military service.
    Shortly before the April recess, I introduced legislation (HR 
1714--``The Armed Forces Citizenship Act'') which would have made 
active duty military personnel immediately eligible for citizenship. My 
bill would also waive the customary administrative fees required for 
naturalization, and make it possible for service men and women to take 
their citizenship oaths overseas. Finally, a critically important 
section of my bill provides for citizenship gained in this fashion to 
be revoked if the serviceman is discharged under ``other than 
honorable'' circumstances. They must follow through on their 
commitment--they have to do their part.
    I'm pleased that in just the few days we've been in session since 
the break, 25 of my colleagues have joined as co-sponsors of my bill.
    However, after extensive conversations with immigration officials, 
the military services, and a number of my colleagues, I have made 
several changes that are incorporated in my new bill, which has not yet 
been assigned a number by the Clerk.
    First, in response to Members who are reluctant to grant 
``immediate eligibility'' for citizenship, I would now propose to 
establish eligibility after one year of military service. According to 
the Defense Department, the vast majority of those failing to complete 
their initial enlistments are gone before the end of their first year 
in uniform. For the most part, by the end of a year in the service, we 
know what kind of people these individuals are.
    Second, because the current law accelerating naturalization for 
military personnel makes no distinction between active duty and service 
in the reserves, I have removed that distinction from my bill as well.
    And finally, I would strongly urge the Committee to make it 
possible for military personnel to begin the paperwork process for 
naturalization upon entering military service, in the hope that once 
they have served the required time in uniform, there would be no 
unnecessary further delay in administering their oaths of office. 
Ideally, by the time any individual was ordered into harms way, he or 
she would be made eligible to become citizens of the country they serve 
to defend.
    In closing, Mr. Chairman, let me say that I am pleased that several 
of my colleagues have introduced legislation conferring citizenship on 
those servicemen who lost their lives before becoming citizens. And 
while I support their efforts, I am hopeful that this committee will 
work to ensure that it is never again necessary to grant citizenship to 
an American soldier who has died in the service of his country--before 
experiencing the tremendous pride felt by all those who can say five 
very simple words, ``I am an American citizen.''
    Thank you very much, Mr. Chairman.

    Mr. Hostettler. Congressman Frost.

   STATEMENT OF HONORABLE MARTIN FROST, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Frost. Mr. Chairman, I am going to summarize my written 
testimony, if I may, and submit my entire statement for the 
record.
    Mr. Hostettler. Without objection.
    Mr. Frost. Mr. Chairman, my legislation predated the 
President's Executive order of last year and predated the 
involvement in Iraq. My legislation was first suggested to me 
by the then Adjutant General of the United States Army, Major 
General Kathy Frost, my spouse. And the reason it was suggested 
to me was that as Adjutant General of the Army, she observed 
the great difficulty that legal residents had in applying for 
citizenship under current law; that is, not being able to apply 
at their duty station wherever they were around the world, 
having to fly back to the United States at their own expense, 
perhaps as much as $1,000 required for air fare, the difficulty 
in scheduling their appointments, their interviews here in the 
United States, and that really current law did not work.
    The question also involved the amount of time; under 
current law, as has previously been stated, there was a 3-year 
requirement. My legislation would reduce this to 2 years.
    I listened with interest to the testimony of my colleague, 
Doc Hastings. The 1-year provision in his new bill is an 
interesting idea. I think that there must be a specific period 
of time. I suggested 2 years because that was the minimum tour 
of duty in the United States Army. Perhaps this Committee would 
want to consider 1 year. I believe 2 years is an appropriate 
period of time. And the reason that I provided 2 years, as was 
previously testified by Doc Hastings, is that 25 percent of the 
men and women who sign up for our military leave before they 
have completed their 2 years of service.
    And, more specifically, there is a period of basic training 
that I went through as an enlisted man in the Army. There is a 
period of advanced individual training. All this occurs before 
you are ever assigned to a unit. And that is when our services 
make the basic decision as to whether this is an appropriate 
person to serve, and that is also when many of the people who 
have volunteered are unable to fulfill the requirements of 
service in our Army or our other branches.
    So I think a time period is very important, whether it be 
the 2-year period as suggested by my legislation, or perhaps 
the 1-year period as suggested by my colleague Mr. Hastings. 
This, doing something, is very very important, however. We all 
know about the President's Executive order, an Executive order 
that has been issued by other Presidents in times of wartime. 
There is the remedy in time when our country is engaged in war 
to provide for a shorter period of time, as the President has 
appropriately done.
    We need permanent legislation that will apply no matter 
whether we are in war or whether we are simply building up our 
Armed Services. That is why I introduced the legislation that 
would reduce the 3-year period, and that is why I introduced 
legislation that would eliminate the fees and make it possible 
for people to be processed in their duty station wherever they 
are around the world.
    I would hope that the Chair would reconsider his position 
as to the 3-year requirement. I believe that is too long. And 
also I think that it is imperative that we pass some 
legislation to recognize the soldiers who have fallen in this 
most recent battle. You have heard their names, some of them 
previously stated: PFC Francisco Martinez Flores, Corporal Jose 
Anhel Gadabay, Lance Corporal Jesus Suarez De Solar, Lance 
Corporal Jose Gutierrez, and others who have given their lives 
or risked their lives for this country.
    I represent a very large Hispanic constituency. My district 
is 38 percent Hispanics. Hispanics evidence a high degree of 
support for this country. They are very proud of being in the 
United States and of serving our Nation. And I believe this 
legislation is long overdue. I hope the Committee will listen 
carefully to the testimony of all my colleagues who all offer 
constructive suggestions, and that you fashion some legislation 
that will recognize the service of these brave men and women to 
our country.
    Thank you very much.
    Mr. Hostettler. Thank you, Congressman Frost.
    [The statement of Mr. Frost follows:]
 Prepared Statement of the Honorable Martin Frost, a Representative in 
                    Congress From the State of Texas
    Mr. Chairman, I appreciate and thank you for this opportunity to 
testify today on an issue of such great importance to our Armed Forces 
and our nation.
    In the war against Saddam Hussein, non-citizen soldiers were among 
the first brave men and women to fall. Some were born in Mexico before 
joining the U.S. military--like Pfc. Francisco Martinez Flores, Cpl. 
Jose Angel Garibay and Lance Cpl. Jesus Suarez del Solar. Others were 
born in Guatemala--like Lance Cpl. Jose Gutierrez. But all died 
fighting for a country where they couldn't even cast a vote.
    These brave individuals earned the respect and gratitude of every 
American citizen. All of those who've chosen to make ultimate 
sacrifices for the defense of our country certainly have earned the 
full rights and privileges of U.S. citizenship.
    Thousands of our troops, including many who just faced combat in 
the Iraq, are not U.S. citizens. According to the Department of 
Defense, the number of legal permanent residents serving on active duty 
has risen to 37,401 or about 3 percent of our military. Additionally, 
thousands of immigrants serve in the reserves and were called up for 
active duty.
    The ranks of non-citizens serving in the Armed Forces are growing, 
and today's immigrants are building upon a rich legacy of service in 
the U.S. military--immigrants have fought in every American conflict, 
from the Revolutionary War to the War with Iraq. The military service 
of immigrants reflects the strong strain of patriotism among 
generations who've chosen to come to America. And the patriotism of 
today's large Hispanic immigrant communities is particularly strong.
    However, thousands of those troops are still not citizens today 
because of the significant obstacles that remain.
    The sacrifices of legal permanent residents in our military are 
unique--they choose to defend the freedom of American citizens while 
not sharing in the full rights and privileges of citizenship 
themselves. Unfortunately, the process for granting citizenship to 
immigrants within the U.S. military still places heavy burdens upon 
them, especially those serving in the toughest overseas assignments.
    Under current law, immigrant troops who have served three years in 
the military may apply for citizenship. All citizenship interviews 
however, must be done in the U.S. Therefore, troops must pay their own 
way back and are subject to burdensome immigration fees. In total, a 
low-paid G.I. deployed overseas could easily have to spend more than 
$1,000 on fees and travel expenses to complete the naturalization 
process. These costs, and the difficulty of scheduling appointments 
months in advance, make it all but impossible for the non-citizens 
fighting for America in Iraq or Afghanistan to become U.S. citizens 
while they serve on the front lines.
    Congress has an opportunity to relieve immigrant troops of these 
burdens--and to pay tribute to their sacrifices--by passing H.R. 1275, 
the ``Citizenship for America's Troops Act,'' a bi-partisan bill that I 
first introduced last May.
    My bill would remove unfair and unnecessary obstacles to facing 
thousands of legal permanent residents serving honorably in the U.S. 
military trying to obtain their citizenship. My legislation does the 
following:

        <bullet>  Lowers the military service year requirement from 
        three years to two years in order to apply for citizenship

        <bullet>  Allows citizenship interviews and oath ceremonies to 
        be conducted overseas at U.S. embassies, consulates, and 
        military installations.

        <bullet>  Exempts these troops from paying all fees relating to 
        naturalization.

    Last year, following the precedent of previous administrations in 
time of military conflict, President Bush signed an Executive Order 
making those who had been on active duty since September 11th 
immediately eligible for citizenship. However, this executive order is 
only good only in times of conflict and not peace.
    It is often said that the best offense is a good defense. Our 
military is undisputed as the most powerful in the world. This is due 
in no small part because of the contributions of legal permanent 
resident soldiers. Their efforts in times of peace should not go 
unrecognized and unrewarded. As we have seen in the last months' of 
war, legal permanent resident troops were all too willing to pay the 
ultimate sacrifice when called to serve their country at war.
    H.R. 1275 has the support of several prominent immigrantion and 
military organizations--the League of United Latin American Citizens, 
the National Council of La Raza, the National Association of Latino 
Elected Officials, the American Immigration Lawyers Association, and 
the Air Force Association.
    This is not a partisan issue--both Republican and Democratic 
Members are co-sponsoring the Citizenship for America's Troops Act. 
That's because the ``Citizenship For America's Troops Act'' contains 
simple, common sense measures to make life easier for dedicated, 
military personnel who dearly wish to become U.S. citizens.
    Thank you again for the opportunity to testify today.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Hostettler. Congressman Jones.

  STATEMENT OF HONORABLE WALTER B. JONES, A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF NORTH CAROLINA

    Mr. Jones. Mr. Chairman, thank you. And I thank the Ranking 
Member and the men and women on this Committee for this 
opportunity to discuss H.R. 1799, the ``Fallen Heroes Immigrant 
Spouse Fairness Act.'' Mr. Chairman and Committee Members, this 
does two very simple things: It eliminates the 2-year marriage 
threshold for immigrant spouses petitioning for permanent legal 
residence, and it waives the $80 fee charged to the family 
seeking posthumous citizenship for their loved ones who have 
died in the line of duty.
    Mr. Chairman and Committee Members, I can very briefly tell 
you how this came to my attention. Several weeks ago, Sergeant 
Michael Bitts was killed in Iraq. His wife Janina is from 
Australia. They had three children. One was 3 years old, a 
little boy; then Michael had twins born that he never saw, and 
they were born after he was deployed. I went down to the 
funeral of Sergeant Michael Bitts down at Camp Lejeune, and I 
had the opportunity to speak to the family to convey my 
sympathy on behalf of my colleagues in the House and the 
Senate.
    Also, at that time I had the opportunity to speak to Pat 
Millish. She is the immigration liaison for the Judge Advocate 
at Camp Lejeune, which is in my district. Also Fort Bragg and 
Pope Air Force Base; those two bases are not in my district. We 
discussed the need for this legislation, because what has 
happened is that if by chance Mrs. Bitts had been in this 
country 1 year and 11 months, then she would have to start the 
whole naturalization process from the beginning, from day one. 
As it worked out, she had been here 2 years and 1 month prior 
after her husband's death. So basically what we are trying to 
do is to say to that family member who has lost a loved one, 
whether it be in a non-wartime situation or in a wartime 
situation, that you may continue the process where you are when 
that loved one dies.
    And it is very simple legislation. It is to the point. And, 
quite frankly, Ms. Millish says that she hopes that the House 
and the Senate would pass this very simple legislation to help 
the loved one who has lost an individual who has been in the 
service.
    I am pleased to tell you and the Committee that we do have 
the written support of the Fleet Reserve Association, the 
National Military Families Association. And again, this is a 
bill that does two simple things. But I think it is so 
important to that spouse so that when she or he loses a loved 
one and they are in the naturalization process, they don't have 
to go back to the very beginning of the process. They continue 
where they are at that point in the process when that loved one 
has lost their life.
    So Mr. Chairman, with that, again I thank you and the 
Committee for giving me this opportunity to testify, and I will 
thank you and be glad to answer any questions when that time 
comes forward. Thank you, sir.
    Mr. Hostettler. Thank you, Congressman Jones.
    [The statement of Mr. Jones follows:]
 Prepared Statement of the Honorable Walter B. Jones, a Representative 
              in Congress From the State of North Carolina
    Chairman Hostettler, Ranking Member Jackson Lee, thank you for 
inviting me to speak on the topic of House Military Naturalization 
Bills. I am pleased to have this opportunity to speak about legislation 
aimed at amending current immigration law to eliminate the 2-year 
marriage threshold for immigrant spouses petitioning for permanent 
legal residence and to waive the $80 fee charged to families seeking 
posthumous citizenship for their loved one who has died in the line of 
duty.
    I have recently introduced legislation, the Fallen Heroes Immigrant 
Spouse Fairness Act, H.R. 1799, to address the two issues I have 
mentioned. As the current law is written, should a U.S. citizen spouse 
die before a 2-year period of marriage is reached, the pending 
application of the non-citizen spouse is vacated. Widows and widowers 
of our men and women in uniform who are in the process of applying for 
a green card should not have their application process terminated if 
they are unfortunate enough to have lost their loved one prior to 
reaching the 2-year threshold.
    In the 3rd District of North Carolina, where there are numerous 
military installations and facilities, one of my constituents was 
killed during Operation Iraqi Freedom. This constituent's spouse is a 
legal immigrant seeking to become a citizen and had been living in the 
3rd District for 2 years and one month prior to her husband's death. 
Consequently her paperwork for a green card will proceed. However, it 
is incomprehensible to me that should this immigrant spouse have been 
married for 1 year and 364 days her paper work would have been voided 
due to the death of her husband. That is wrong. The time limit should 
be eliminated for spouses whose loved ones have given their lives 
serving our Nation.
    The Fallen Heroes Immigrant Spouse Fairness Act would amend Section 
201(b)2(A)(i) of Immigration and Nationality Act to eliminate the 2 
year marriage requirement for foreign spouses of U.S. citizens who die 
while serving. Additionally this legislation seeks to remedy a practice 
of charging families of non-citizen soldiers who are killed in the line 
of duty an $80 fee for processing an application for posthumous 
citizenship. These brave men and women have made the ultimate sacrifice 
protecting the freedom and interests of the United States. As such, the 
imposition of a fee for the application process for posthumous 
citizenship is an insult to the contribution these service men and 
women made to our national defense.
    It is my sincere wish that we can make these common sense changes 
to our immigration process. We should not punish the families of our 
soldiers simply because they are unfortunate enough to have incurred 
the greatest loss of all with the death of their loved one in the 
service of our country.

    Mr. Hostettler. Congressman Gutierrez.

 STATEMENT OF HONORABLE LUIS V. GUTIERREZ, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Gutierrez. Chairman Hostettler and Ranking Member 
Jackson Lee, Members of the Committee, thank you so much for 
allowing us to come before you this morning. I want to thank my 
colleagues, Congressman Hastings and Congressman Frost and my 
good friend Walter Jones and Issa and Hilda Solis. I think, and 
I hope, Mr. Chairman--and I heard your opening remarks, and I 
apologize, the plane was a little late this morning. I really 
do apologize. I hope you don't take that as any consideration 
as a lack of importance of this hearing.
    But look at this wonderful group of Congressmen, if I may 
so include myself.
    Mr. Hostettler. Without objection.
    Mr. Gutierrez. I just can't think of another moment in my 
11 years in the Congress of the United States where we have 
brought together such a diverse grouping of Members of Congress 
from different--obviously the two political parties, and even 
within the political parties, different ideological bents 
within those political parties. But we have all come together 
because we see an injustice. And I hope you will take that into 
consideration as you and the Ranking Members and other Members 
of the Subcommittee make your deliberations on this issue.
    I too will follow my colleague, Congressman Jones, and 
simply try to explain a little bit about the Fairness for 
America's Hero's Act, H.R. 1815. And what it does, Mr. Chairman 
and Members of the Committee, it simply says that when the 
Commander in Chief of the Armed Forces of the United States, 
the President, calls you to combat duty, that at that moment 
you become conferred with American citizenship.
    I say this because you shouldn't have to die in order to be 
posthumously given American citizenship. Someone shouldn't have 
to go out and pay for and search out a death certificate for 
someone who has died defending this Nation in order to be 
granted American citizenship. I mean, think about it, Mr. 
Chairman. You apply for permanent residency. That takes time. 
By the time you sign up--and you know, we don't take everybody 
these days. We make sure that we take the best qualified into 
our Armed Forces these days.
    Then, as Martin Frost, Congressman Martin Frost, you go 
into training. They check you out, they take your fingerprints. 
They find out who you are. They find out something about you 
during that time. And then you get more training. I mean, by 
the time this soldier takes that gun and is called to combat 
duty, of the 37,000 noncitizens that currently are in the Armed 
Forces of the United States, about 10 percent of them are 
called to combat duty. So that is who we are talking about.
    And so all my bill proposes to do is to say, look, if you 
are willing to pay the highest tax in this body--which is the 
taxing body--of this great Nation of ours, if you are willing 
to pay the highest tax that any citizen or any member of a 
nation can pay, which is the tax of their life and their limb 
and their health, then at that moment that Nation should 
respond and say you are a complete member of this great body of 
the United States of America. We are not going to wait for you 
to die.
    I mean, think about it. They have applied. We all have 
casework in our office where people have applied. And then, Mr. 
Chairman, they send them to combat duty, they send them to 
training, they can't get back, they miss the exam date.
    Why are we waiting to give somebody on combat duty a civics 
test so they can become an American citizen? I mean, they have 
given us all a lesson in civics. An English test? They got that 
when they were in basic training. They wouldn't have made it 
through without having a command of the English language. 
Security test, Mr. Chairman? What security clearance could they 
possibly need? We have given them the most sophisticated 
weapons known to mankind for them to use in defense of this 
Nation. So, obviously we have already crossed those thresholds. 
These are bureaucratic measures that we should somehow try to 
overcome.
    And secondly, Mr. Chairman, it says that those that gave 
life to that valiant soldier--their mother, their father, and 
those who will cary on life for that soldier, the spouse and 
the children, that immediate family, something that we defend 
and cherish so much in everything that we do here in the 
Congress--that that soldier who makes sure that I am able to go 
back to my grandson that was born a couple of days ago and my 
children, and allows us to go back to our families and our 
spouses and see my mom and my dad and continue to cherish in 
that relationship, that that application doesn't die. Because 
that literally is what happens. A permanent resident; it dies. 
Let it live because the Congress of the United States saw fit 
to do so.
    Thank you very much, Members of the Committee, and thank 
you very much, Mr. Chairman.
    Mr. Hostettler. Thank you very much, Mr. Gutierrez.
    [The information follows:]
       Prepared Statement of the Honorable Luis V. Guitierrez, a 
         Representative in Congress From the State of Illinois
    Chairman Hostettler and Ranking Member Jackson Lee, thank you for 
holding this important hearing. I am grateful for the opportunity to 
testify before this Subcommittee on my bill, the ``Fairness for 
America's Heroes Act'' (H.R. 1850), which grants automatic citizenship 
to servicemembers called to combat duty and provides immigration 
protections to immediate family members who lose a loved one in 
military service to our nation.
    The war in Iraq has, once again, highlighted the very important 
contributions and sacrifices non-citizen soldiers make to our military. 
Currently, there are more than 37,000 non-citizens on active duty in 
our military and each year approximately 7,000 new non-citizens join 
the armed forces. The presence of these brave men and women in our 
military is nothing new. Immigrants have fought in every war since the 
American Revolution. In fact, they account for 20 percent of 
Congressional Medal of Honor recipients.
    The war on terrorism and the war in Iraq have poignantly, and even 
tragically, highlighted the need to reform how immigration policy 
affects the brave, legal permanent residents currently serving in our 
military. I believe we all agree there is a need for laws that reflect 
the heroism and patriotism of our non-citizen soldiers.
    Although permanent residents on active duty usually have to wait 
three years before they can apply for citizenship, President Bush 
issued an Executive Order in July 2002 that allows them to apply for 
citizenship immediately. This was an appropriate, timely, and 
commendable use of his executive powers. Servicemembers, however, must 
still comply with the naturalization process and submit an application 
and supporting documentation, pay related fees, take an exam, 
participate in an interview and often have to wait long periods of time 
due to backlogs in application processing. A soldier's ability to 
pursue citizenship continues to be further complicated by their 
deployment to bases all over the world, well out of the reach of 
immigration service centers.
    My colleagues testifying today have proposed some important and 
creative solutions to remove these barriers that non-citizen soldiers 
face in their pursuit of U.S. citizenship. I commend their efforts and 
express my whole-hearted support for their legislative initiatives to 
streamline the naturalization process for active duty servicemembers. I 
also ask your support, Mr. Chairman, and the support of this 
Subcommittee for the central provision of my bill that takes 
immigration reform a step further for those who are called to risk 
their lives in the most dangerous conflicts around the globe. I am 
talking about the brave men and women who are called to serve in combat 
zones.
    Of the tens of thousands of immigrant servicemembers on active 
duty, approximately 3,200 are currently serving in a combat zone. These 
brave men and women are willing to die defending our nation and it is 
imperative that we recognize their selflessness and their spirit--not 
only when one of them is killed in battle, but from the moment they are 
called up for combat duty.
    My bill would grant immediate citizenship to non-citizen soldiers 
who are serving honorably and called to combat duty service. The date 
they become citizens would coincide with the date they officially 
qualify for the combat zone exemption as defined by the Internal 
Revenue Code.
    Within 30 days of being notified of the soldier's naturalization, 
the Secretary of the Department of Homeland Security would issue an 
appropriate citizenship document reflecting the date the soldier was 
sent into combat.
    An additional provision of H.R. 1850 would also create a 
contingency for surviving family members of noncitizen soldiers granted 
posthumous citizenship by protecting their eligibility to adjust status 
even after a soldier's death. This and all other provisions of my bill 
would take effect as if passed on September 11, 2001, thereby making 
its reforms available to any servicemember who has served, or died, 
since that date.
    Unfortunately, because of needless barriers to citizenship, 
soldiers have been killed on the battlefield without ever realizing 
their dream of U.S. citizenship. I believe we need laws that accurately 
reflect their service and their sacrifice. All of those who serve--
regardless of race, gender, or country of origin--are recognized as 
America's heroes. My bill would allow them, rightfully and justly, to 
also be recognized as Americans--a distinction they have earned and 
deserve.
    Mr. Chairman, I ask that the key provisions of my bill be included 
in any legislative vehicle that is considered and approved by this 
Subcommittee. No soldier serving our nation should ever have to come 
home in a body bag to be recognized as an American. I appeal to this 
Subcommittee for its support of my bill, and I thank you again for the 
opportunity to testify today.
    I would be happy to answer any questions you may have. Thank you.

    Mr. Hostettler. Congressman Issa.

   STATEMENT OF HONORABLE DARRELL ISSA, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Issa. Thank you, Mr. Chairman. And I would like to give 
special thanks to the Ranking Member, Ms. Lee. We worked 
together on authoring my, I believe, narrow but importantly 
crafted piece of legislation. And without her help I don't 
believe it would be the document it is here today.
    I will submit my printed statement for the record, and take 
the liberty of expressing perhaps an opinion borne both of my 
service on this Committee and my service in the military, to 
say that as the Chair and as the Chair of the full Committee 
deliberate how to roll together all of this legislation into 
what I believe will be a single bill, one that I look forward 
to supporting, there is a balancing act.
    And I think that all of us here below the dais are in 
agreement that we need to reform immigration as to our service 
members. We need to do it not in a rush to judgment because we 
were very proud of our military and what they did in faraway 
lands both in Afghanistan and in Iraq, but because it is the 
right thing to do and it is long overdue.
    I particularly would like to take note that the normal 
prohibition on active duty members of the military lobbying 
Members of Congress was fortunately waived with Mr. Frost, and 
for a good reason. I believe that Mr. Frost has hit on some 
very important points:
    First of all, that somebody could serve 2 years in the 
military, be honorably discharged, and find themselves less 
than the existing 3 and having to go through this process.
    I also share with Congressman Frost the concern that we not 
lower to a level so low that someone could simply join the 
military, serve for a very short period of time, get their 
citizenship, depart the military under what might be 
characterized as honorable discharge, but often isn't. And I 
want to make a point, as someone who has been both an enlisted 
man and an officer and has discharged men and women, we often 
discharge under what are called general, under honorable 
condition, honorable conditions, soldiers who their service 
wasn't all that honorable. It wasn't dishonorable, but it 
wasn't all that honorable. And I think that practice in the 
military has to be taken into consideration when we look at 
shortening the period.
    I do believe that there is one thing that none of us as far 
as I can tell addressed specifically, and that is that if we 
are going to look at the period of service--and let us just say 
that we go with the 2-year for a moment. That if someone 
becomes injured--not killed, but injured, due to no fault of 
their own, and discharged as a result, we need to ensure that 
that does accelerate their consideration to service. As you may 
all know, during that basic training and that advanced 
individual training and then when soldiers go into the training 
beyond that--I was airborne qualified. Jumping out of an 
airplane can be done pretty safely, but sooner or later, if you 
jump often enough, you may get injured and injured severely 
enough not to be able to continue to serve--that that is an 
area of unique consideration that you may want to add to all of 
this legislation.
    I will summarize and be available for questions by saying 
that although my piece of legislation with Ms. Jackson Lee is 
probably one of them that is narrow enough that it is not in 
doubt, when we look at adding all of these others, let us 
balance, please, Mr. Chairman, balance the possible shortening 
with the possibility that we would shorten it so much that we 
would create unfairly an ability for people to join the 
military for other than the honorable and right reasons that 
people should and do join the military. Citizenship is granted 
for those who serve honorably in the military, not you join the 
military to get citizenship and then get out as fast as you 
can. And I hope we would keep with that tradition.
    Last, but very much not least, those who have died in 
performance of their duty for their country, we often talk 
about are they legal or are they not legal. I would hope that 
this Committee would never question somebody who has enlisted 
in the military, served their country, a country that wasn't 
theirs, died honorably, we should never question whether or not 
they were in legal status when they enlisted. This should be 
the one exception to any and all consideration, because I 
believe that it is too late to second-guess whether someone 
should have been admitted into the military or not. And I would 
hope as we look to that in this type of legislation, that we 
not second-guess that, just as, Mr. Chairman, you said very 
well, it is almost impossible to second-guess citizenship once 
granted; and, therefore, citizenship must be as it is today, 
nearly irrevocable.
    Thank you, Mr. Chairman. I stand ready for questions.
    Mr. Hostettler. Thank you, Congressman Issa.
    [The statement of Mr. Issa follows:]
 Prepared Statement of the Honorable Darrell Issa, a Representative in 
                 Congress From the State of California
    Mr. Chairman, thank you for holding a hearing on House military 
naturalization bills including H.R. 1685, a bill I introduced to 
eliminate the prohibition on benefits for surviving spouses and 
children of non-citizen military personnel killed while on active duty 
during times of military hostilities.
    Camp Pendleton Marine Corps Base in my Congressional district is 
home to over 50,000 Marines. Many of these Marines were deployed to the 
Middle East to free the people in Iraq from Saddam Hussein's oppressive 
regime. In the early stages of the war in Iraq, uniformed Marines, 
nearly every day, presented me with next of kin (NOK) notices for those 
Marines killed in action from my district. One of the Marines that died 
for this country was an active duty non-U.S. citizen. I was told that 
he would receive posthumous citizenship--under current law, a strictly 
honorary award.
    Existing immigration and naturalization law permits the President 
to award posthumous citizenship to non-citizens killed in any military 
hostility, but denies immigration benefits for their spouse and 
children. Honorary posthumous citizenship is a hollow benefit for a 
fallen hero if his spouse and children are subsequently asked to leave 
the country that he died defending. We should honor the sacrifice of 
fallen heroes by allowing their spouses and children to enjoy the 
benefits and freedoms of the country they were fighting to defend, and 
would have eventually gained had their loved one not perished.
    My bill will amend the Immigration and Nationality Act (INA) to 
allow spouses and children of those granted posthumous citizenship to 
self petition because their primary sponsor has died in combat. This 
bill does not automatically grant anyone citizenship. Spouses and 
children will still need to apply for citizenship and meet certain 
background requirements defined in the INA.
    There are nearly 38,000 non-U.S. citizens serving in our nation's 
armed forces. When these men and women are again called upon to protect 
this nation, I want to them to know that if they make the ultimate 
sacrifice for America their family will not face a cruel and 
unnecessary legal sanction.
    Mr. Chairman, thank you again for the opportunity to testify before 
for your committee. I stand ready to answer any questions you may have.

    Mr. Hostettler. Congresswoman Solis. I must say at the 
outset I apologize for the mispronouncing your name. With my 
last name, I should be more sensitive to this. I apologize for 
that. And Congresswoman Solis, you are welcome to give your 
testimony.

  STATEMENT OF HONORABLE HILDA L. SOLIS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Solis. Thank you very much, Mr. Chairman, and also 
Ranking Member Jackson Lee and Members of this Subcommittee 
that are here today. I am especially happy to be here to be 
able to present H.R. 1814, the ``Naturalization and Family 
Protection for Military Members Act.''
    As you know, during the past month and a half we have all 
been saddened by the many deaths of our soldiers that have been 
killed in Iraq. And like many other service men and women 
before them who have lost their lives in defense of our 
country, these soldiers are true heroes, and we honor them and 
their families.
    Over 100 U.S. military members have been killed in the war 
on Iraq. Many in Congress and around the country have been 
surprised to learn that among these fallen heroes were at least 
10 soldiers that were not U.S. citizens. One of them happened 
to be one of my constituents. It is a young man, Lance Corporal 
Francisco Martinez Flores from the city of Duarte in the 32nd 
Congressional District of California, Los Angeles County. He 
was 20 years old. Martinez Flores was born in Guadalajara, 
Mexico, and came to the U.S. with his family at the age of 3. 
He attended our public schools there in Duarte, participated in 
the Boy Scouts, and played football in high school. At the age 
of 18, he enlisted in the Marines. He was killed in action on 
March 25th when his tank plunged into the Euphrates River in 
Iraq; 1,500 people packed a local church that I went to in 
attendance for the ceremony to memorialize him. It is the first 
time that I had seen so many people in our community unite 
around one flag and one soldier and one family, a family that 
gave their son, their oldest son.
    Lance Corporal Francisco Martinez Flores was just two weeks 
shy of earning his U.S. citizenship, but he died. He never got 
to realize that. His family felt enormous pride when he was 
granted citizenship by the President. But that didn't go far 
enough. It doesn't go far enough for his siblings, for his 
brothers and sisters, and for his parents.He was just one of 
thousands of lawful permanent residents who currently serve our 
military now. And now, as we welcome home our men and women in 
uniform, we should honor the sacrifices of soldiers like Lance 
Corporal Martinez Flores and their families for ensuring the 
ability of immigrant soldiers, legal permanent soldiers, to 
gain citizenship in a timely manner.
    The legislation that I have introduced is the most 
comprehensive, in my opinion, to help provide the military with 
the tools to naturalize these individuals. It includes 
provisions in Congressman Frost's Citizenship for American 
Troops Act, of which I am a strong supporter. And these 
provisions would waive naturalization fees, allow 
naturalization interviews and citizenship oath to take place 
abroad, and shorten the 3-year service requirement to 2 years. 
It is--and I have to state that it is a hardship for many of 
our young men to come back to this country after serving 
abroad, having to pay for their air fare and then pay for those 
legalization fees to come here to receive the oath of office. 
Why can't we open up our doors in our local consulate offices 
abroad to allow them to go through the ceremonies there and 
waive those fees?
    I want to commend Congressman Frost, who was working on 
this issue long before the war on Iraq. H.R. 1814 builds upon 
his provisions by ensuring that the ability of members of the 
Selective Service Reserves would also be included in this act. 
This provision is included because recruiting needs are 
immediate during wartime. And I say that because I also had an 
opportunity to meet with local Reservists in my own district, 
some of whom are young women who were preparing to go to war. 
Two days before I had met with them, they were already 
scheduled to go to Seattle, Washington and then be departed out 
to the Middle East.
    And I say that because many of them were perhaps, for at 
least the past 6 months, in preparation for war. Why can't they 
also be a part of those individuals that would be granted, at 
least in a timely manner, citizenship?
    They too deserve, in my opinion, special recognition for 
their bravery and sacrifice. The final aspect of my bill, one 
that I feel very strongly about, would establish immigration 
protections for the immediate family. And I say that because 
the family of soldiers like Francisco, whose parents may not 
have obtained their permanent legal status here, who not be 
eligible because their son had died serving our country, I 
think it is only fitting that we allow them an opportunity, 
they play by the rules, they pay taxes, they have no criminal 
background, they are here, they gave their son or daughter. 
They should also be allowed those protections.
    So my bill goes in that direction. And I am proud to say 
that this is a comprehensive bipartisan piece of legislation, 
and I am happy that Congressman Cannon, a Member of the 
Subcommittee, is also a co-author. I thank the gentleman for 
his support.
    Other Ranking Members include Congressman Conyers, Chairman 
David Dreier, who sits next to me in my neighboring district 
there in Los Angeles County, Congressman Chris Smith, Lane 
Evans and other Members. In addition, this bill has a companion 
measure in the Senate, Senate bill 922, and that also enjoys 
bipartisan support.
    This bill is supported also by a broad range of 
organizations. We have worked very hard with this Committee 
staff and my staff to see that we could get a bipartisan piece 
of legislation that could take care of the concerns that our 
constituents are feeling, but also those various service groups 
that we also place honor upon. And I would like to list them: 
The Veterans of Foreign Wars, the Blue Star Mothers of America, 
the National Guard Association of the United States, and the 
Noncommissioned Officers Association of the United States. It 
includes various other organizations that are also helping to 
advocate for this measure.
    I also have received the endorsement of the congressional 
Hispanic caucus, most of--more than half of the Members that 
have come on the bill. I would ask that this bill be given 
consideration. I also would like to mention in this hearing the 
possible opportunity to see the 2-year limit reduced to one. 
That is something that we should talk about, definitely. But I 
also know that there are individuals outside of this particular 
hearing room that would like to see that we keep at least the 
limit at 2 years because we are looking at military service. 
And that is currently a requirement. Thank you very much, Mr. 
Chairman and Members.
    Mr. Hostettler. Thank you, Congresswoman Solis.
    [The statement of Ms. Solis follows:]
Prepared Statement of the Honorable Hilda L. Solis, a Representative in 
                 Congress From the State of California
    Thank you Chairman Hostettler and Ranking Member Jackson-Lee for 
inviting me to speak before the Subcommittee today about H.R. 1814, the 
Naturalization and Family Protection for Military Members Act.
    During the past month and half, we have all been saddened by the 
news of soldiers who have been killed while serving in Iraq. Like the 
many other servicemen and women before them who have lost their lives 
in defense of our country, these soldiers are true heroes, and we honor 
them and their families.
    Over 100 U.S. military members have been killed in the war with 
Iraq. Many in Congress and around the country have been surprised to 
learn that among these fallen heroes were at least ten soldiers that 
were not U.S. citizens.
    One of them, Lance Corporal Francisco Martinez Flores, was from 
Duarte, California, in my district. Martinez Flores was born in 
Guadalajara, Mexico, and came to the U.S. with his family at age 3. He 
attended public schools, participated in Boy Scouts, and played 
football for his high school. At the age of 18, Martinez Flores 
enlisted in the Marines. He was killed in action on March 25th when his 
tank plunged into the Euphrates River. Fifteen hundred people packed 
his church and the surrounding streets for his funeral to show their 
love and respect for this fallen hero.
    Lance Corporal Martinez Flores was just two weeks shy of earning 
his U.S. citizenship when he was killed. His family felt enormous pride 
when he was granted citizenship posthumously.
    Martinez Flores joins a long tradition of immigrant soldiers who 
have died in service to the United States. He was just one of thousands 
of lawful permanent residents who currently serve in the military.
    Now, as we welcome home our men and women in uniform, we should 
honor the sacrifices of soldiers like Lance Corporal Martinez Flores 
and their families by ensuring the ability of immigrant soldiers to 
gain citizenship in a timely fashion.
    The legislation I introduced, H.R. 1814, is the most comprehensive 
of the military naturalization bills. It includes the provisions in 
Congressman Frost's Citizenship for America's Troops Act, of which I am 
a strong supporter. These provisions would waive naturalization fees, 
allow naturalization interviews and the citizenship oath to take place 
abroad, and shorten the three-year service requirement to apply for 
naturalization to two years. I want to commend Congressman Frost, who 
was working on this issue long before the war in Iraq as part of his 
continuing commitment to protect the rights of all military families.
    H.R. 1814 builds upon the Frost provisions by ensuring the ability 
of Members of the Selective Reserves to expedite their naturalization 
application during times of hostility. This provision is included 
because recruiting needs are immediate during wartime and readiness is 
essential. During the war with Iraq, many reservists were activated, 
and many more were expected to be called up at a moment's notice to 
defend our country. They too deserve special recognition for their 
bravery and sacrifice.
    The final aspect of my legislation--one I feel very strongly 
about--would establish immigration protections for immediate family 
members of soldiers killed in action. These military families have paid 
the ultimate sacrifice in losing their loved one in service to our 
country. The least we can do for these grieving families is to express 
our collective gratitude for their sacrifices by ensuring their ability 
to apply for U.S. citizenship.
    I am proud to say that this comprehensive legislation has been met 
with strong bipartisan support. Congressman Cannon, a Member of this 
Subcommittee, is a coauthor. Other cosponsors include: Ranking Member 
Conyers, Chairman Dreier, and Congressmen Chris Smith and Lane Evans, 
Chairman and Ranking Member of the House Veterans Affairs Committee.
    H.R. 1814 is supported by a broad range of organizations, including 
the Veterans of Foreign Wars, the Blue Star Mothers of America, the 
National Guard Association of the United States, the Non-Commissioned 
Officers Association of the United States, the National Council of La 
Raza, the National Asian Pacific American Legal Consortium, the 
American Immigration Lawyers Association, and the Air Force Sergeants 
Association. It has also been endorsed by the Congressional Hispanic 
Caucus.
    Several weeks ago, I had the opportunity to help relaunch a support 
hotline that serves the many Latino immigrant families in the Los 
Angeles area who have loved ones serving in the military. The hotline 
is crucial to immigrant families who may find it difficult to obtain 
information about their loved ones due to language barriers.
    At the event, I had the opportunity to meet many of these proud 
family members. The families displayed photographs of their loved ones, 
and I've brought several of these pictures here today.
    The soldiers in these pictures may not yet be U.S. citizens, but it 
is clear that they and their families love this country. On their 
behalf, I am proud to be working with my colleagues in Congress to 
enact a comprehensive bill that recognizes the sacrifices of these 
soldiers and their families.
    I'm pleased that this Subcommittee has agreed to address this 
important issue.
    I want to thank the Chairman and Ranking Member again for allowing 
me to testify today. I also want to thank Chairman Sensenbrenner and 
Ranking Member Conyers for their commitment to this issue and for the 
assistance of their staff throughout this process.
    Thank you.

    Mr. Hostettler. We will now enter the time of questions 
based on the 5-minute rule. First of all, Congressman Hastings, 
why did you decide to lower the current 3-year military service 
requirement to 1 year now in your new legislation?
    Mr. Hastings. It is probably just the reality of the 
legislative process. I feel very strongly in my initial bill 
that it should be zero very simply, because of what we all read 
of those that gave their life. So I felt the proper time period 
would have been zero. But we all know that when you introduce 
legislation that is the start of the process and not the end of 
the process. And so, in discussions that I had with a number of 
Members, discussions with various organizations, I felt that a 
compromise there has to be a time period, then it should be 1 
year. But it was simply the reality of trying to get something 
that can pass.
    Again, if I had my druthers and I were a benevolent 
dictator, like all of us would be, individually we would have 
ideal legislation with the one that we would introduce. I 
recognize this is the start of process and not the end, and I 
feel a one year time period is appropriate. I might add also 
from the time that I was in the service the training is much 
more extensive now in a longer period of time. Congressman 
Frost alluded it to that in his testimony and I certainly 
agree. So by the time you get to a point where somebody would 
be potentially in a combat situation or in a death situation 
probably he would have satisfied that 1 year any way. So, it is 
a combination of all of those factors that I think it is--I 
just think bottom line the time period ought to be shortened. 
That is the bottom line.
    Mr. Hostettler. Very good. Thank you. Congressman Jones, 
did you consider lowering the 3-year military service 
requirement as part of your legislation?
    Mr. Jones. No, sir. Primarily my concern was when I 
communicated with the wife of the fallen hero as well as to the 
lady who is in charge of working with the judge advocates 
office at Camp Lejeune. My bill just primarily dealt with the 
fact that the spouse, the surviving spouse of a fallen hero 
should not have to as they are trying to become American 
citizens start the process again. So what we basically are 
saying is that we should eliminate the 2-year limit in that 
situation where you have a spouse who has been killed or died 
in training for this country.
    Mr. Hostettler. I don't think I asked the question 
correctly. Did you consider it? And if not, was there a reason 
why you did not consider lowering the requirement?
    Mr. Jones. No, basically I did not.
    Mr. Hostettler. Okay. Congressman Gutierrez, I understand 
that your bill currently to mean that a soldier ordered to 
service would be automatically granted citizenship without 
having to apply for naturalization; is that correct, that has 
been called into combat?
    Mr. Gutierrez. At the moment that soldier is called into 
combat, and I want to reiterate there are 37,000, but only a 
little over 3,000 that are called into active duty combat, that 
the moment, so that we would never go into a situation where we 
have to go search for a death certificate and apply for one and 
go through this process, which is a process in which most cases 
works out, but it is after the death of the soldier. The 
Internal Revenue Code, for example, there is a provision in the 
Internal Revenue Code when you go into active duty, combat 
duty, you get a tax break. I would think that as a country if 
we are thinking of a tax break for someone, we would think of 
that citizenship. And that comes because when Cardinal Mahoney 
in Los Angeles presided over the memorial service of Lance 
Corporal Gutierrez, suggested that he felt such a burden as an 
American citizen and as a leader of a religious community that 
that Lance Corporal would now have to go about the process of 
searching and seeking that American citizenship.
    Mr. Hostettler. Thank you. Congressman Solis, in your bill, 
in your statement, you refer to permitting brothers and sisters 
to receive immigration benefits. But your bill seems not to 
include them. Is that a correct----
    Ms. Solis. Actually, we would want to allow for their 
brothers or sisters or siblings, if they hadn't, to self-
petition. If, for example, this young man that I indicated 
passed away and his sister or brother did not have an 
application pending, they could self-petition. If they were 
already in the process, then this would continue, you know, in 
that process there. So it would be uninterrupted. But I would 
also just like to clarify what we are looking at here, in many 
cases, are families that have lived here for several years.
    And in this case of this young individual who passed away, 
was here at the age of 3, went through our public school system 
and what have you. And it is unfortunate that he was not 
eligible at the time to receive citizenship in his family. 
There are still members there that are not citizens, are now 
precluded or not given any advantage. So to me it is an 
advantage or benefit that is well deserved.
    Mr. Hostettler. Thank you, Congressman. I now yield to the 
Ranking Member, Ms. Jackson Lee for questions.
    Ms. Jackson Lee. Thank you very much. As I said earlier, 
all of the presentations and the ideas of the legislative 
initiatives are excellent. Mr. Chairman, I think our challenge 
will be to ensure that we fully represent the talents and the 
intent of these legislative initiatives. I would like to first 
pose a question to Mr. Frost and acknowledge, as my good friend 
and colleague from California has done, is Mr. Frost has 
brought this to our attention some time ago in over a period of 
more than a year.
    So Mr. Frost, you have insight through the very fine expert 
that you have had contact with, the hardship of not being able 
to process at duty post and maybe some occurrences that may 
have negotiated the very fine service of individuals who have 
not been able to process.
    Mr. Frost. Well, I thank the gentlelady for her question. I 
really appreciate your service on this particular Subcommittee 
and on behalf of our delegation, it has been very important for 
the time that have you devoted to it. There aren't individual 
stories, there are a lot of stories in terms of the difficulty 
it is. The key thing is that as I indicated in my testimony and 
several others have alluded to, the cost of coming back here of 
buying a round-trip ticket to the United States from wherever 
they may be station can be very, very significant.
    And many of these individuals come from basically a modest 
means. And to have to spend $1,000 or $1,500 for a round-trip 
ticket rather than being interviewed at the consulate where 
they may be or at their duty station really is a barrier they 
shouldn't have to face when they are risking their lives for 
our country.
    And also there are great scheduling delays when someone is 
on active duty in a foreign country and they have to schedule 
an interview with their particular, back here in the United 
States, I have had my caseworkers, not just my wife, but 
caseworkers who work for me in my office in Texas have told me 
the great problem this causes and that sometimes people have to 
rescheduled several times because they can't get away from 
their unit, they can't come back to meet the initial 
appointment.
    I had a press conference in my district where I had three 
soldiers, two of whom were women, one is a young man who came 
and talked about the difficulty that they had had in just 
scheduling when they would do their interviews when they were 
back in the United States, when they were stationed abroad. And 
this was a very real problem. And we shouldn't be posing those 
kind of barriers, we shouldn't be electing those kind of 
barriers for something that should be easy. We want to 
recognize this service. We want to honor this service and ought 
to make this as easy as possible.
    Ms. Jackson Lee. I think all of us have found individuals 
in our respective districts that have had this encounter. And I 
would venture to say that if you would ask any American whether 
or not that was a process or the procedure, they would be 
shocked to see a document that they have to leave their duty 
post in order to complete their paperwork. And I am going to--I 
would like to raise this question for Congresswoman Solis and 
Issa and Gutierrez, and you can follow up, I would like to hear 
particularly because I think this is a very important point, 
the hardship that your deceased constituents family now faces 
with respect to the question of their status or their ability 
to petition for citizenship.
    Ms. Solis. Well, it becomes very, very difficult for them. 
And I think is even one other example that is currently in play 
in Los Angeles. There is a soldier who is serving right now, 
and he is a legal permanent resident. His mother is from 
Guatemala. She is now in the process of being deported. And 
unfortunately, there is no recourse in the law right now for 
this parent.
    This bill that I am proposing would actually help to 
provide protections for her. And of course, there is 
sensitivity around this entire issue and I understand that. It 
is very complicated. But there are a lot of good things that I 
think can come out of this. And families currently that I have 
come into contact with and I have recently seen many of them in 
my district in the area of east Los Angeles that I represent, 
the high number of young men that are currently serving us 
whose parents are LPRs, are hoping to seek some status here as 
well, knowing that their child, their son or their daughter may 
not come back. Many of them are on very fixed low incomes. They 
even rely on the support of that soldier that is abroad. Once 
that is in jeopardy, you can see where this is going.
    It is indeed a hardship. It isn't just Hispanic community, 
it is also the Asian community, the Filipinos, people from 
other countries who are serving us right now to protect our 
freedoms.
    Ms. Jackson Lee. Ask your kind indulgence of additional 
minute for the Members to responds to the question.
    Mr. Hostettler. Without objection.
    Ms. Jackson Lee. Representative Issa, let me just build on 
Congresswoman Solis's point, and Representative Gutierrez may 
want to add to the earlier question that I posed, but in the 
legislation that we have had the pleasure of working together 
on, we allow the spouse and child to petition for immediate 
relative status. Looking at the criteria and the hurdles that 
they have to ascend, meaning all the listing of good 
credentials and no criminal activity, can we consider the idea 
of having a self-petition for the immediate relative in looking 
at that to see where that would take us in terms of the 
numbers? I think the deportation is a separate issue. I want to 
narrow it to the issue of the first, I think, set of 
circumstances of the deceased individual who Congresswoman 
Solis mentioned and those brothers and sisters. But let me 
yield to you.
    Mr. Issa. First of all, I think you are exactly right that 
no matter what the numbers are, the numbers who have given 
their lives are relatively small, and we owe them something we 
can't give them. It was one of the reasons that when you and I 
talked about this whole question of giving posthumous 
citizenship and nothing else, it is specifically taking away 
what would otherwise be the rights of citizenship, it became 
obvious what we were giving was pretty empty to the dead and we 
were giving nothing to the living.
    I think the interesting thing about the deportation of 
somebody whose member is serving overseas, I find it 
interesting that I even watched an episode of MASH from many 
years ago in which that was the scenario of how to keep the 
mother of a soldier from being deported. They finally, I guess, 
she was Swedish, they finally got her a job with diplomatic 
status at the Swedish consulate because that was MASH and they 
could do that.
    The reality is if a soldier is serving overseas we have a 
statute that says that you, in fact, cannot divorce that 
soldier while he or she is overseas. We have that for a reason. 
The soldier or sailor or Marine is not there to fight for their 
rights and to make their case. It would seem just as reasonable 
that you not deport an immediate family member who lives under 
the support or help or assistance of that soldier, sailor, or 
Marine during their deployment overseas. It is a small request, 
but it is very consistent with what we do with other domestic 
questions.
    And last but not least, I think the biggest question you 
are going to decide that will be very big and very different, 
will force the State Department to make material changes, is 
this question of citizenship being granted while overseas. And 
I would only say that just less than a year ago in the air 
coming out of Kuwait, I reenlisted a soldier. And by the way, 
because it was combat, there were no taxes on it. But if I can 
reenlist somebody any place a soldier's foot stands, and it is 
considered good enough to be the United States, isn't an 
American embassy or consulate or, in my opinion, any place a 
soldier's foot stands on foreign soil, American enough to 
reenlist--or to grant them citizenship there? I would strongly 
suggest that we allow the broadest definition of what the 
United States is in our legislation so that we can, in fact, 
allow for citizenship to be granted anywhere, any time an 
appropriate officer is there to give the oath and the soldier 
is qualified. Thank you.
    Ms. Jackson Lee. Thank you very much.
    Mr. Gutierrez.
    Mr. Gutierrez. Anybody, one, we all know that the INS, when 
they take the fingerprints of an applicant, only considers them 
reliable for 6 months, so that we have issues of soldiers on 
active duty on the combat front, which are sent notices to come 
back to take fresh fingerprints. Again, what is the security 
issue here for that soldier? I don't see any. We have given 
them a gun, we have given them the highest technology, we want 
them to take a fingerprint test again.
    Secondly is that permanent residents are only allowed to 
petition for their children and their spouses. Well, what about 
their parents? Should mom or dad be deported because that 
petition is not available to that soldier? And so I looked at 
all of the different legislation, and one of the areas I just 
looked at I said combat duty, they have got the gun, they are 
on the front, should we wait for them to die before they become 
an American citizen? Given the fact that we all know that there 
are delays, and all of them have them in our offices of 2, 3, 4 
years in the immigration process to become an American citizen. 
We shouldn't have that delay.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Mr. Hostettler. The Chair now recognizes the gentleman from 
Iowa, Mr. King for 5 minutes.
    Mr. King. Thank you, Mr. Chairman. I would like to thank 
all the panelists for your testimony here. It is unusual to see 
this kind of a panel with such a bipartisan cross-section, and 
one that has so much in common with their viewpoint that you 
brought to this table. Each testimony has been interesting to 
me. I just reflect that as I evaluate this, I really want to 
take a piece of paper and draw a line down through it and list 
all the categories that you have addressed here, and the 
nuances of those categories, and then try to sort through and 
say where do I disagree with you, because it is hard for me to 
find those.
    I would say, Mr. Gutierrez, your testimony has been the 
most compelling. Maybe it is because you emote better, but also 
you focused on the call to combat duty. That is the issue that 
I think would have the least resistance by any part. So I 
propose my first question to you, one that I am having trouble 
answering myself, what is going to be the other side of this 
argument? I mean, you all come to the table with essentially a 
theme that is consistent here and it is legitimate here, but 
what are we going to hear as criticism on the other side of the 
argument.
    Mr. Gutierrez. They will say people are going to sign up so 
they can become citizens right away. Well, number one, let's 
remember that the President of the United States has already 
waived the 3 years. So I really don't understand what the 
discussion and the debate is about. He did it. It was almost 
unanimous, the applause and the acclaim for an action well 
taken by the President of the United States in a time of war. 
These are our best, that is what we call them when we recruit 
them, our best and brightest in our Nation. They are legally in 
the United States. No one, I think, in their right mind, is 
going to think that somebody is going to join the Armed Forces 
of the United States to go from a 5-year wait to a 3-year wait 
in order to process a citizenship application. And so, I think 
they might think that that is what they are going to do.
    I would just say that, look, even being born in this 
country and having served in the Armed Forces, as Timothy 
McVeigh did, does not guarantee that you are not going to be 
involved in some act of terrorism. I wish that was the test. It 
would be such a more wonderful country. So I thank you for your 
comments. I think that might be the thing. I don't think we 
diminish it because they are giving their lives.
    Mr. King. Mr. Issa.
    Mr. Issa. I think one more item, Mr. King, would be this 
whole question of honorable service. And I think the 
Congressman said it very well. Your going to the service isn't 
to get citizenship. On the other hand, your raising your right 
hand and agreeing to go to basic training doesn't make you a 
good soldier or your service characterizable as honorable. It 
is one of the reasons that I am a little bit concerned about 
going to zero under any conditions other than posthumously, 
because whatever time is expired, that is all we have. But I 
have no doubt that once the military can make a determination 
that the service can be characterized as honorable, whether you 
choose to reduce it to 1 year, or perhaps go with Mr. Frost's 
2-year proposal, I think you achieve what you want to achieve, 
and completely shun all criticism of whether or not people have 
earned a unique acceleration of their citizenship.
    Mr. Frost. If I could add, Mr. King, I have met with a 
cross-section of veterans organizations in my district in 
Texas. They have emphasized the same point that Mr. Issa did, 
as long as the service is honorable and there is a sufficient 
period of time to determine that the service is honorable, then 
they fully embrace this also. But they do have that threshold 
of honorable service.
    Mr. King. I am a little unclear about what the definition 
is for a call-to-combat duty. Does that include stateside duty 
during a time of crisis?
    Mr. Gutierrez. We use the Internal Revenue Code. So if they 
qualify under the Internal Revenue Code for combat duty is--we 
tried to find a test.
    Mr. King. So that would be consistent with that?
    Mr. Gutierrez. With combat duty, yes.
    Mr. King. Thank you. I would add, also, as I listen to 
these things, something that I think is essential--citizenship 
needs to be precious. It needs to have value in order for it to 
be--also have value to this country. Certainly service in the 
military is a very powerful indicator of that commitment to 
that value. The citizenship test portion of the naturlaization 
requirements as applied to the military and asking that it be 
provided within the military doesn't seem to me to be too much 
to ask.
    It is a civics lesson that prepares one for the citizenship 
test. I think that is essential. I think that goes with the 
person for a lifetime. I have met people that have been in this 
country for 20 years and didn't know they weren't citizens. I 
think it would be essential for them to go through that 
process, but I don't think it is difficult to do that on a 
foreign land either.
    Mr. Frost.
    Mr. Frost. I do want to go back, too, to the point that we 
should avoid air situation where you are going to have a 
revocation of citizenship. I think the period of time should be 
long enough, whatever that period is agreed upon, so that you 
won't have a large number of attempts by our Government to 
revoke someone's citizenship. I think that is a direction that 
we should avoid at all costs.
    Mr. King. Mr. Issa.
    Mr. Issa. I might mention in my travels around the world 
although Mexico allows dual citizenship, as some other 
countries do, for a great many countries taking the oath of 
citizenship in the U.S., revokes permanently your citizenship. 
So if you quickly enlist somebody and give them citizenship you 
might very well find out that no, their country is not going to 
accept them back just because you have revoked it. So then you 
end up with something that we deal with a nightmare, which U.S. 
take away their citizenship and nobody else wants them either.
    So I do agree with Mr. Frost that this is the most 
important item is to balance it so that we don't have to 
increase the amount of revocations of citizenship.
    Mr. King. Thank you, Mr. Chairman.
    Mr. Hostettler. Thank you, Mr. King. The Chair now 
recognizes the gentlelady from California, Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman. And thank you to all 
our panelists who have taken the time to come and testify 
today. Mr. Frost, you mentioned your bill would reduce the time 
requirement down to 2 years, and there seems to be some debate 
whether 2 years is too short or whether 1 year is long enough. 
Do you have any concerns with Mr. Hastings' recommendation of 
reducing it down to a year, that is to say, I know that you 
mentioned the attrition rates in the first 2 years. Is there a 
significant difference between the second versus first year?
    Mr. Frost. I don't fully know the answer to that question. 
That is a question the Committee may want to pose to people in 
the military to people with the Department of Defense. The only 
information I have is the attrition rate during the first 2 
years, although I am being handed something which may be more 
helpful.
    Ms. Sanchez. I will allow you a moment.
    Mr. Frost. My very efficient staff has--I will have to ask 
them--let me ask a question. The information that I have been 
provided by my staff, which I believe they obtain from the 
Defense Department, was that DOD-wide, that is, all the 
services, and this is by year and we would be happy to submit 
this into the record, that the percent loss during the first 6 
months seems to be in the range of 11 to 12 percent, as high as 
15 percent in 1 year--in 2 of the years, 1993 and 1994, percent 
lost at 12 months, it seems to me as high as 20 percent in 1 
year, and percent lost at 14 months then is as high as 26 
percent.
    So there is--it does increase in terms of the amount of 
time. It is not a flat amount, if that is what your asking, Ms. 
Sanchez. It is something that has to be considered. Because the 
services themselves have different amounts of time for their 
basic training and for their advanced individual training. And 
I think the key is having a long enough period of time so that 
we don't have a great deal of--so that we have compensated for 
whatever attrition will occur, if it is high, it does rise to 
as high as 25 percent over a period of 2 years, although that 
25 percent doesn't occur just during the first 6 months or 
during the first 12 months, it is cumulative and occurs the 
longer that you are in.
    Ms. Sanchez. Thank you, Mr. Frost. Mr. Jones, from your 
testimony, I am not sure that I gathered whether or not--I know 
your bill specifically deals with spouses who have applied for 
citizenship and are somewhere in the process. Is your bill--
would your bill, and I believe that your bill addresses those 
who are killed during active military service, would it also 
cover soldiers killed while they are enlisted, although they 
may not be involved in combat service?
    Mr. Jones. Yes, ma'am, it does. This is the--this would 
cover anyone that is in uniform and should they be killed in a 
car accident or training and they have the spouse who is in the 
process, they would be covered.
    Ms. Sanchez. Thank you. Mr. Issa, you expressed a little 
bit of concern about shortening the length of service required 
from the 3 years. Are you--would you be opposed to shortening 
it to 2 years?
    Mr. Issa. Not at all. As a matter of fact, I think 2 years 
is the optimum date. If we reinstate a draft, as Mr. Rangel is 
asking to us do, it would be a 2-year draft. The 2-year 
enlistment still exists in some services. So to say that you 
need 3 years when you can actually only be in 2 years in some 
cases, as I said, also the possibility that for medical, let's 
just say the chute doesn't open properly and you end up broken 
into pieces, which really does happen during training, in 
original training and later training, there is a possibility 
you would need to have to deal with that.
    I am very concerned about the 1 year or zero, because I 
know altogether too well that you can go through 8, 9 months of 
training, some people do fine in training, and then they 
immediately, immediately prove that they are not terribly 
interested in being soldiers once they get through the 
training. I think optimally 2 years is the compromise. I think 
Mr. Frost's figures looking at the attrition rate, we don't 
want to grant citizenship to that 25 percent who got in the 
military and didn't serve honorably.
    Ms. Sanchez. I would ask unanimous consent for one more 
minute to ask one last question.
    Mr. Hastings. Could I respond to that?
    Mr. Hostettler. Without objection.
    Mr. Hastings. Just to put the figures correctly here, if 
those enlisted in 1998 and 1999, the fallout in DOD-wide in 
both cases in the first year was nearly 20 percent; 1 year it 
was 20 percent, the next year it was 19 percent. So the biggest 
fallout is going be the first year. You have a very small 
fallout the second year. The implication of that is very 
obvious. The period of getting the best people to stay longer 
is more pronounced the longer they are in. You are going to get 
the people that are less desirable, presumably, out the first 
year. That is one of the reasons in response to the Chairman's 
question that one of the factors that I offer the 1 year 
compromise rather than the zero.
    Ms. Sanchez. Point very well made.
    Ms. Solis, currently it seems that we have some bills that 
will address the specific situation where a spouse who is 
married to a citizen--or married to a legal permanent resident 
who is serving in the military, has submitted her application, 
his or her, I should say, application for citizenship, and then 
the spouse dies and is awarded the posthumous citizenship, and 
there are some bills specific to addressing if she hasn't been 
married--he or she has not been married for 2 years.
    What is the current status of the law if the noncitizen 
spouse has--is not in the process or hasn't yet applied for 
citizenship when their spouse is deployed? Do they have any 
protections whatsoever?
    Ms. Solis. No. That is the purpose of our legislation is to 
provide an opportunity for an individual in that situation to 
hopefully self-petition, be allowed that opportunity, and in 
the case of some of the soldiers that have passed away in Iraq, 
I know that in the case of, say, a parent, the parent has--is 
an LPR also, but having had their son killed, they still at 
this time would have to wait a longer duration period. If this 
bill is enacted, it would actually help to discontinue to 
secure that they are not disadvantaged and that they are not 
lost in that process. To me, this is one of the better attempts 
to try to secure that all those family members that haven't 
petitioned have an opportunity to do that. And those that are 
in play continue to have their applications processed and be 
taken care of appropriately with have guarantees written into 
the law.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Mr. Hostettler. I thank the gentlelady from California. In 
conclusion, I want to thank the Members of this panel----
    Ms. Jackson Lee. If you would yield for just one question, 
I would appreciate it.
    Mr. Hostettler. Without objection.
    Ms. Jackson Lee. Again, I want to emphasize, I appreciate 
the Chairman and I appreciate the Chairman of the full 
Committee and the Ranking Member of the full Committee for the 
urgency behind this legislation. Mr. Chairman, I think this is 
a signal to the Members here, and I look at the number, evenly 
divided between Republicans and Democrats that maybe this 
Subcommittee on Immigration will be open to many more 
immigration-legislative initiatives. You see, I have my 
Chairman smiling. That will help us gain----
    Mr. Issa. Here, here.
    Ms. Jackson Lee.--earned access to legalization as we look 
to the future. But I think this is a very fine signal that we 
can work together around common issues that are clearly 
important. I want to just pose a question to Congresswoman 
Solis, and if the other Members would answer it because I think 
in her legislation that there is a singular point besides the 
other very excellent proposals and the excellent analysis given 
by Members of this question of relatives. I define it, I don't 
want to misspeak, siblings. I know you can get relatives far 
and wide, and those of us who come from minority communities 
and maybe immigrant communities, Mr. Chairman, and I think the 
whole Nation is an immigrant community, you know how extended 
families are.
    So I am trying to be sensible about this. I would think, in 
light of your constituent, you had a mother and father and then 
siblings. So I would ask you about this family member scenario, 
whether you would be willing, or whether your legislation would 
focus on the siblings. You say relatives, but keeping it in 
that definition. And then also your flexibility on, you know, 
some of the waivers.
    As you well know, there are many, many waivers here, but I 
think this is an excellent idea and I would like to find common 
ground. I would like the Members to comment on what they think 
about the sibling concept as it relates to including them in 
this process.
    Ms. Solis. You are absolutely right. This issue is a very 
important issue. I am very open to crafting something a little 
bit more definitive. In the case of Francisco Flores Martinez, 
his sister is currently not in status. And this certainly would 
be an opportunity for someone like that to be able to petition.
    Ms. Jackson Lee. I appreciate it.
    Mr. Issa. I think what I said earlier when we are talking 
about fallen heroes we are talking about a very small group 
that we can give nothing to that person any longer. We can 
grant them citizenship, but what is that--I don't see written 
it on the tombstone normally, it probably won't say Lance 
Corporal U.S. Citizen Posthumously. So it may be the best 
example where we can reach out and try to expand anything and 
everything that we can give, if you will, to say thank you to 
that soldier. And perhaps siblings could be that appropriate 
stretch that would be uniquely granted to those who gave this 
last measure.
    Mr. Gutierrez. Yes, just to reiterate the point you 
shouldn't have to die to finally become an American citizen. 
There are so many other ways that people are becoming American 
citizens, number one. I think what Congresswoman Solis does and 
what many of the other proposals do is very excellent because 
if I am a national of Mexico, as many of those who have died 
recently in Iraq or of Guatemala, and I apply for my spouse, 
takes, 5, 6, probably close to 7 years before that visa becomes 
available. So in other words, I join the Armed Forces, I serve 
for my 3 years, whatever I am still waiting another 3 years, 4 
years before her visa becomes available. And that of my minor 
children. My mom and dad, I can't even do it.
    So I think it would be good for this Committee to fashion 
something so that a soldier doesn't die, pay the ultimate tax, 
has his wife waiting for that visa, and because he died his 
petition for his wife died with it, that that doesn't happen in 
this country anymore. I think it is a great suggestion. And 
maybe one of the things is to have some charts, count how long 
it takes for minor children, spouses, and who is eligible. And 
I think the Committee can do a wonderful job in helping to 
remedy that.
    Mr. Frost. Can I make one other observation, Chairman?
    Ms. Jackson Lee. We were going down the row.
    Mr. Jones. Ms. Jackson Lee, I would be very open to 
reviewing such a proposal as it would move forward. I am one 
that with Camp Lejeune, Cherry Point, Seymour Johnson Air Force 
base, I think all of our men and women in uniform are very 
special and their needs are very special. There are family 
needs as well. And we need to review it as a Congress.
    Mr. Frost. The only other observation I would make is that 
I would urge the Committee to keep in mind that what we are 
doing is changing permanent law and do that in a comprehensive 
and forward looking way as you can. The President, under 
existing law, has the right to issue executive orders as he did 
in this particular case, which, in fact, shortened the time 
frame. But what we are looking--by this legislation, what all 
of us are looking to do is to a change in permanent law, which 
would bring some order out of all of this.
    And it would extend through peacetime, not just through a 
particular national emergency, that we just faced. Because we 
need some certainty and some fairness in dealing with 
immigrants to this country who are being asked to join our 
Armed Services, not just in an immediate wartime situation, but 
in the interim. And there will be a lot of interims, I believe, 
in the future as we are the only superpower in the world and 
may be called upon to address a variety of situations. I would 
hope the Committee would keep that in mind of bringing some 
refinement and order to current, to permanent laws as it exists 
right now. Thank you.
    Mr. Hastings. The focus of this Committee, the focus of all 
of our legislation because of what happened in Iraq to people 
that were not soldiers, that were not citizens of this country. 
Whenever you draft legislation like this, there are always 
consequences that go beyond what you are focusing on initially. 
I would just--I would certainly be open to looking at whatever 
those consequences would be. But I think what I would advise 
the Subcommittee to look on is how that, how some of these 
suggestions would either complement or not, complement current 
law as it relates to those. So that would be my only condition. 
But I would certainly be open to looking at all of them. But 
let's not lose sight of what we are trying to do is for the 
individual who gave his or her life in defense of our country, 
and that is where we ought to be focusing on.
    Ms. Jackson Lee. I think that is an excellent situation. 
Whenever we write legislation, we have to be sure that we have 
our T's crossed and I's dotted, and certainly, you know, every 
Member I know knows the complexity of immigration law, hear 
about it from your district offices. I think your point, along 
with Mr. Frost's point and the other Members, consistency and 
order would help a great deal. If we can get that out of this, 
I think that would be very important.
    I thank the Chairman very much for yielding to me. Again, I 
think you have moved us quickly forward, but I do think that 
this is appropriate time to move quickly on this issue. Thank 
you very much.
    Mr. Hostettler. Thank the gentleman. And this Subcommittee 
is used to second rounds of questioning so we have another 
Member, Mr. King, that would like to ask the panel another 
question. Recognize the gentleman for 5 minutes.
    Mr. King. Thank you, Mr. Chairman. In the interest of time, 
I would just ask for a quick answer to a couple of questions. 
One would be the percentage of those who were killed in action 
that were non citizens. Does someone on the panel have that 
number?
    Mr. Gutierrez. I don't know the exact number. I think it 
was seven.
    Ms. Solis. Excuse me, there were 10.
    Mr. Issa. It is roughly the same percentage as who served.
    Mr. King. The question was going to be----
    Mr. Frost. 3 to 5 percent is what you are saying.
    Mr. King. Does that extrapolate across the full services 
for those also that were killed in training?
    Mr. Issa. No. Killed in training?
    Mr. King. Yes.
    Mr. Issa. I don't think anyone had training figures. But it 
probably is fairly similar. In this case, Marines took the 
heaviest percentage of combat deaths just because of their 
role.
    Mr. King. I raise this question because of Mr. Jones' 
testimony. Killed while in the service, killed while--my 
concern is this: That if we go down that path we also are 
careful that we don't also confer automatic and honorary 
citizenship on someone who is happens to be in the service who 
is killed while committing an act that does not contribute to 
an honorable discharge.
    Mr. Issa. The posthumous award has its own criteria. It is 
not just you die you get a posthumous citizenship. So we never 
envisioned changing the rules for posthumous citizenship in my 
legislation. It has its own rules. But I will say that you 
know, the second--first lieutenant who replaced me as XO of a 
company a week after I left, he went on Return of Forces to 
Germany which used to be call REFORGER, and a helicopter hit a 
power line and flipped over and he was killed. That could have 
just easily been me. We were in time of peace, but we were 
preparing for the Soviets coming over the Czech border. I do 
believe when we look at training accidents most often, those 
accidents they are not the guy who is off duty in a Jeep, but 
those training accidents have everything to do with being 
prepared for the kind of success we just had in Iraq.
    Mr. King. Absolutely. We overlook those training accidents 
and those deaths. I think we should bring that to more light 
than we do, because it is a sacrifice. And maybe as many as 5 
to 6,000 accidents in the period of time between Desert Storm 1 
and our operation in Iraq, just to be ready. So I want to take 
a careful look at that language.
    I didn't hear any testimony that addressed that particular 
criteria, but I think it needs to be service that contributes 
to an honorary discharge rather than if we have somebody off 
base who commits an act.
    Mr. Hastings. I do say that your citizenship would be 
revoked on other than honorable discharge. You may want to look 
at that and tighten it up and make some adjustments, but my 
legislation does specifically address that issue.
    Mr. King. We come at it with the same philosophy. So that 
concludes my curiosity. Thank you, Mr. Chairman. I want to 
thank the panel for an excellent presentation today.
    Mr. Hostettler. Thank the panel for your presence and your 
contribution to the record as well as this very important 
issue. And Members of the Subcommittee are advised that the 
record will stay open for five legislative days to revise and 
extend. That the point the business of the Subcommittee being 
completed, the Committee is adjourned.
    [Whereupon, at 11:48 a.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

         Prepared Statement of Congresswoman Sheila Jackson Lee
    Jose A. Gutierrez was an orphan from Guatemala when he hitchhiked 
on railcars into Mexico in 1997. He entered the United States 
illegally. Later, however, as a minor with no parents, he qualified for 
permanent residency and was taken in by a foster family. He graduated 
from high school and studied at a junior college before joining the 
Marine Corps.
    On March 21, 2003, in a battle with Iraq's Republican Guard troops, 
Lance Cpl. Jose Gutierrez was killed in the service of the country he 
loved. According to Martha Espinosa, one of his former foster mothers, 
``He once told me, 'I was born the day I arrived in this country.'"
    Jose was one of four fallen Marines who deserve special mention 
because they died in service to a country they could not yet call their 
own. The other three were Pfc. Francisco Martinez Flores, Cpl. Jose 
Angel Garibay, and Lance Cpl. Jesus Suarez del Solar, all born in 
Mexico.
    Immigrants have long seen service in the U.S. military as a gateway 
to citizenship, education and economic opportunity, and the deaths of 
these four Marines echo those of other non-citizens who died for this 
country before them. Their valor is well documented.
    Service in the United States military, particularly in times of 
conflict, is the ultimate act of patriotism. Our immigration laws 
traditionally have allowed for expedited citizenship consideration for 
non-citizen members of the United States military, even in peacetime.
    For example, Section 328 of the Immigration and Nationality Act 
allows non-citizen members of the military in peacetime to become 
citizens after three years of service, instead of the usual five-year 
wait required of non-military applicants.
    In addition, Section 329 of INA allows non-citizens to receive 
immediate naturalization eligibility through their active duty service 
in the Armed Forces during periods of military hostilities. This 
opportunity becomes available when the President designates by 
Executive Order that the armed services are or were engaged in armed 
conflict with a hostile foreign force.
    Under Section 329 of the INA, 143,000 non-citizen military 
participants in World Wars I and II, and 31,000 members of the U.S. 
military who fought during the Korean War, became naturalized American 
citizens. Executive Orders following Vietnam and the Persian Gulf War 
collectively led to more than 100,000 members of the U.S. military 
becoming American citizens. Notwithstanding this history of generosity 
towards people who have served in our armed forces, the provisions on 
military service based naturalization can be improved.
    The bills that are the subject of this hearing offer improvements 
in a number of areas. For instance, some of the bills would reduce the 
three-year wait for peacetime service. Some of my colleagues would like 
the time reduced to two years. Others would eliminate the wait entirely 
and permit a peacetime soldier to begin the naturalization process 
immediately when he or she begins active duty in the armed forces.
    The area that concerns me the most is posthumous naturalization, 
which is granted when a soldier dies while on active duty during a 
period of military hostility. As presently written, the posthumous 
naturalization provisions explicitly state that the soldier's spouse 
and children will not benefit from the grant of posthumous citizenship. 
Several of the bills would remove this exclusion and specify that the 
spouse and children will be eligible for immigration benefits on the 
basis of the posthumous grant of naturalization.
    I believe that we must go further. We need to show the extent of 
our gratitude towards the soldiers who die for this country by making 
citizenship readily available to their surviving spouses who are 
already lawful permanent residents of the United States.
    Ordinarily, a lawful permanent resident must be married to a United 
States citizen for a period of three years before he or she can apply 
for naturalization as the spouse of a United States citizen. Section 
319(d) of the Act waives that requirement in the case where the lawful 
permanent resident spouse is married to a citizen spouse who dies 
during a period of honorable service in the Armed Forces. That 
provision should be revised to apply in the case where the soldier's 
citizenship is received posthumously.
    The only difference between the two situations is that the one 
addressed by current law applies to a soldier who receives his 
citizenship while he is alive, whereas in the second situation, the 
citizenship is received posthumously. In both cases the soldier is a 
citizen who is killed during a period of honorable military service. If 
anything, the posthumous situation is more compelling than the other 
situation. Posthumous citizenship is given when a soldier dies during a 
period of military hostility.
    This additional step should be taken. Thank you.

                              ----------                              

              Prepared Statement of Congressman Bob Filner
    Chairman Hostettler, Ranking Member Jackson-Lee and Members of the 
Subcommittee:
    I have come here today as California's Border Congressman to try to 
make clear what it means to live on the border between the United 
States and Mexico. To those of us who live there, the border is not 
merely a line separating the United States from Mexico, but it is an 
inter-related community where people conduct business and cultures meld 
together. The people living on the other side of that line are not 
merely Mexicans--they are family and friends--and shoppers!
    For generations in the border region, children and their parents 
have been participating in events in both countries that range from 
shopping, to joining in a holiday parade, to receiving medical care. 
Unfortunately, the tragic events of September 11, 2001 have put those 
activities and that community at risk.
    Recently, Secretary of Homeland Security Ridge and Undersecretary 
for Border and Transportation Security Hutchinson visited my district. 
I appreciated the chance to discuss these new policies with them. I 
will share with you now the main issues we discussed:

        1.  Border and Transportation Security and the Bureau of 
        Citizenship and Immigration Services are concentrating too many 
        resources and personnel on ALL who want to cross the border, 
        rather than focusing their attention on high-risk crossers--and 
        using modern technology to handle the frequent crossers. 
        Studies have shown that more than 95% of the 150,000 daily 
        crossers at San Ysidro, the world's busiest border crossing, 
        are ``frequent crossers"--crossing at least once a week, 
        sometimes crossing many times a day--for school, work, housing 
        family and shopping. Our economy--not to mention our families--
        requires efficient crossing, not unpredictable waiting times of 
        sometimes 2 or 3 hours. ALL crossing gates should be open 24 
        hours and high-technology ``smart cards"--issued after 
        extensive background checks and containing fingerprints or 
        other biometric data. Any desired level of security could be 
        built into the cards--and the border can become both secure and 
        efficient!

        2.  In the past, in order to accommodate the unique 
        relationship in the border area, the local Port of Entry 
        Directors had the authority to grant tourist visa waivers to 
        some low-risk, non-immigrant border crossers, including 
        children with regular medical appointments or children who are 
        competing in sporting events or cultural activities. Since the 
        terrorist attacks however, the Department of Homeland Security 
        has changed their policy and now the visa requirements, costing 
        $100 per person, are strictly enforced. This has had 
        devastating effect on the border community. Over the last four 
        decades, the Valley Orthopedic Center in Calexico, CA, has 
        treated 125,00 children with severe deformities resulting from 
        birth defects or serious injury without charge, using volunteer 
        doctors and nurses. These children are very poor and cannot 
        afford the specialized care they require. The $100 fee for a 
        tourist visa is simply out of reach for these families. Let me 
        point out that a minimum wage worker in Mexico makes only 
        $94.50 a MONTH. This clinic is often their only hope, but 
        without the visa, they are turned away when they try to enter 
        the U.S. Denying these children visa waivers for regular 
        medical care makes the U.S. an uncaring neighbor. The same 
        could be said about school trips to the world-famous San Diego 
        Zoo and school bands participating in Christmas parades. Visa 
        crackdowns on low-risk crossers from Mexico are hurting our 
        relationship with our neighbors rather than building a strong 
        relationship in order for us to work TOGETHER with them in the 
        fight against terrorism.

        3.  I also discussed with them the poorly handled National 
        Security Entry-Exit Registration System (NSEERS), hundreds of 
        men who came to register were arrested, and their families were 
        not told what happened to them. These were people who were 
        following our rules and coming to register, and our government 
        arrested them and did not grant them due process. We should be 
        working with the immigrant community and encouraging them to 
        cooperate with the government--not using un-American scare 
        tactics. This only encourages immigrants to avoid contact with 
        our government. When that happens, we lose a great opportunity 
        to instill confidence in the government and, more importantly, 
        we have the potential to miss out on key security information 
        that could be provided by the immigrant community.

    I was encouraged by the Secretary's and Undersecretary's responses 
to my concerns and look forward to the opportunity to work with them to 
ensure that our borders are safe, but also efficient and that the 
United States continues to be a good neighbor and a bastion of freedom 
and justice for all.

                                   - 

</pre></body></html>
